<html>
<title> - MOVING BEYOND THE FIRST FIVE YEARS: EVOLVING THE OFFICE OF INTELLIGENCE AND ANALYSIS TO BETTER SERVE STATE, LOCAL, AND TRIBAL NEEDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
MOVING BEYOND THE FIRST FIVE YEARS: EVOLVING THE OFFICE OF INTELLIGENCE 
      AND ANALYSIS TO BETTER SERVE STATE, LOCAL, AND TRIBAL NEEDS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2008

                               __________

                           Serial No. 110-108

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
42-866 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                  Jane Harman, California, Chairwoman

Norman D. Dicks, Washington          David G. Reichert, Washington
James R. Langevin, Rhode Island      Christopher Shays, Connecticut
Christopher P. Carney, Pennsylvania  Charles W. Dent, Pennsylvania
Ed Perlmutter, Colorado              Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington...................................     2

                               Witnesses

Mr. Matthew Bettenhausen, Executive Director, California Office 
  of Homeland Security, State of California:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Juliette N. Kayyem, Under Secretary for Homeland Security, 
  Executive Office of Public Safety and Security, Commonwealth of 
  Massachusetts:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Frank J. Cilluffo, Director and Associate Vice President, 
  Homeland Security Policy Institute, George Washington 
  University:
  Oral Statement.................................................    25
  Prepared Statement.............................................    28


MOVING BEYOND THE FIRST FIVE YEARS: EVOLVING THE OFFICE OF INTELLIGENCE 
      AND ANALYSIS TO BETTER SERVE STATE, LOCAL, AND TRIBAL NEEDS

                              ----------                              


                        Thursday, April 24, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Harman, Carney, Perlmutter, 
Reichert, and Dent.
    Ms. Harman. The subcommittee will come to order. Good 
morning everyone. The subcommittee is meeting today to receive 
testimony on Moving Beyond the First Five Years: Evolving the 
Office of Intelligence and Analysis to Better Serve State, 
Local and Tribal Needs. After a string of missteps by the 
current administration, the next one must get information 
sharing right. ``Success'' means figuring out what data to 
share, putting the technology in place to do so, and 
establishing the right rules for access. Of course, each step 
must happen within the bounds of privacy laws and 
constitutional protections. This is crucial, because it is 
unlikely that the next President, a DHS Secretary, FBI director 
or someone in the wider Intelligence Community will prevent the 
next terrorist attack.
    Instead, a diligent police or sheriffs officer somewhere in 
America during the course of his or her daily work will see 
something or someone out of place and guided by timely, 
accurate and actionable information will connect the dots that 
will unravel a plot in the making. My ranking member did 
something just like that, it wasn't a terror plot, but it was a 
very serious crime in his area some years back.
    To this end, this subcommittee has made it an imperative to 
improve intelligence and information sharing for our first 
preventers. If we don't make it work for these people and for 
the State Homeland Security advisors who work with them, some 
of whom are facing me, then we will have failed to do what we 
set out to do 5 years ago in the Homeland Security Act. As the 
Department of Homeland Security faces its first Presidential 
transition, we find its Office of Intelligence and Analysis at 
a crossroads.
    DHS has taken positive steps to forge a more constructive 
and responsive relationship with State, local and tribal 
customers it serves. Positive steps have been taken. In 
Minneapolis, on a Monday, for example, I learned from MNJAC, 
the Minnesota Joint Analysis Center of a weekly conference call 
from DHS to link Fusion Centers together. This is very 
positive. Unfortunately, we never heard about it from DHS, but 
one of the local Fusion Centers.
    But on the other hand, it has been a struggle to integrate 
fully local law enforcement representatives into the 
Interagency Threat Assessment Coordination Group or ITACG. The 
Department and specifically, the Office of Intelligence and 
Analysis, seems to have pursued a variety of missions without a 
clear focus.
    In my view, this is not entirely the Department's fault. 
What was originally envisioned by many of us who were co-
authors of the legislation as a robust intelligence shop for 
the Department in 2002 was restructured by President Bush in 
2003 when he set up the Terrorist Threat Integration Center, 
TTIC, later to become the National Counterterrorism Center, 
outside of DHS.
    Having lost the key function shortly after its creation, 
I&A has struggled to redefine its intelligence mission. It 
advertises itself as the primary provider of Federal Homeland 
Security information to State and local customers, claim to go 
create a new kind of Homeland Security intelligence.
    I&A also claims to play the role of educator, rolling out a 
basic level intelligence training course for department 
intelligence analysts and their State and local customers with 
mid- and senior-level courses on the horizon. But the 
aggressive schedule that Under Secretary Allen and his team 
have described of deploying department analysts and liaisons to 
State and local Fusion Centers around the country has so far 
been only moderately successful.
    In addition, in my view, DHS has approached management of 
the National Applications Office, the NAO far too casually. Let 
me be clear, as a member who has fought for years to assure 
that foreign intelligence surveillance complies with strict 
legal safeguards, I will not permit the Department to task the 
Nation's spy satellites for domestic purposes unless and until 
it provides a clear legal framework to Congress.
    It is our job today to assess the Department's progress and 
to help the next administration get it right. The witnesses 
before us, all of whom are good friends of mine, and I am so 
happy to see you all hail from State government and academia. 
Each will address how DHS and its intelligence shop can make 
improvements to get it right now and after January 20, 2009.
    I hope the Department of Homeland Security is listening. 
The benchmarks that the witnesses describe for us today will 
guide the oversight work of this subcommittee for the remainder 
of this session and through the transition to next year. Let me 
welcome you and tell you how pleased I am that you are here and 
how important this hearing is, and I now yield to the ranking 
member for any opening remarks.
    Mr. Reichert. Thank you, Madam Chair. Good morning, and 
thank you for taking some time to be with us this morning. I 
just came from a briefing down the hallway on the upcoming 
Olympics in Canada, just above the Washington, Canadian border. 
So my district is east of Seattle so it is of interest to me.
    This morning they talked about, you might be familiar with 
some of the terminology that we are using here in the U.S. 
integrated security, and an integrated planning, a partnership 
between the State's officials, the local officials and the RCMP 
and Federal. I have had opportunities to work with most of 
those in my previous career. So we are not the only ones trying 
to work on this and find the answers to gathering people 
together to protect the citizens of the United States, and of 
course, the citizens of Canada, who are our good friends.
    Today's hearing is a part of a series of hearings--Moving 
Beyond the First Five Years. The theme is about improving the 
Department's efforts to secure our homeland through integrated 
cooperation. I believe that is why and what we in the 
Department are working to do everyday. I want to thank you and 
all the members of the Department of Homeland Security for what 
you do each and every day to keep this Nation safe.
    While the first 5 years, the Department has seen some 
uneven progress and that is to be expected, the fight against 
terrorists has not been without success. The Department and 
Federal agencies have made significant progress in information 
sharing and standing up such institutions as the National 
Counterterrorism Center, NCTC, partially because of these 
efforts are Federal, State and local governments have been 
successful at preventing planned attacks on the United States 
and against the United States's interests.
    Aside from the obvious successes there have been 
substantial internal improvements over the years at DHS and in 
the Office of Intelligence and Analysis. While examining this 
process, it is important to note that this is an office that 
was created from scratch 5 years ago and was substantially 
reorganized just 2 years later.
    Additionally, last year, this office was again given new 
direction in the 9/11 Commission Recommendations Act. In other 
words, after being created from scratch, the office was 
reorganized and then subjected to major legislation. According 
to a press release from Chairman Thompson these series of 
hearings are also focused on preparing for the next 
administration and the future of the Department.
    It is clear to me that what the Office of Intelligence and 
Analysis needs is to have some time to focus on its core 
mission without another major reorganization by the next 
administration. The Department of Homeland Security has a clear 
State and local mission, and must have some stability in order 
to ensure these missions are carried out.
    One thing that Congress should do to help the Department of 
Homeland Security with their mission is to consolidate 
oversight with over 80 committees and subcommittees that have 
oversight, over components at the DHS, it is a wonder that the 
Department of Homeland Security has been able to achieve 
anything over the past 5 years.
    While this subcommittee has been working to oversee some of 
the legislative improvements that we recently implemented, the 
Department is looking internally at its own flaws. One example 
of this that is often cited is CENTRA, the CENTRA Report, that 
was commissioned by Under Secretary Allen himself to help 
improve the Office of Intelligence and Analysis' outreach and 
service to the State and local communities.
    Furthermore, Under Secretary Allen recently began the 
Homeland Security State and local community of interest which 
is a virtual intelligence group that has won praise within the 
State and local community as major improvement in information 
sharing. While these are but a few recent efforts, I would like 
to hear today from our witness on improvements that they have 
seen and what improvements still need to be made.
    Thank you again for being here, thank you, Madam Chair for 
the time and I yield.
    Ms. Harman. I thank the ranking member. Other members of 
the subcommittee are reminded that under the committee rules 
opening statements may be submitted for the record.
    It is now my pleasure to introduce our witness. Our first 
witness, Matt Bettenhausen, is the Homeland Security security 
advisor to California Governor Arnold Schwarzenegger and is the 
director of the California Office of Homeland Security. He 
previously served as the Department of Homeland Security's 
first director of State and territorial coordination where he 
directed the Department's efforts with State, territorial and 
tribal governments.
    He served on several White House senior policy coordinating 
committees and worked on implementing Homeland Security 
presidential directives. From January 2000 to January 2003, Mr. 
Bettenhausen served as the deputy governor of Illinois. As that 
State's Homeland Security director, he is someone I work with 
often and enjoy. I would love to report to everybody that 
California is a bit safer because Matt is in the position that 
he is.
    Massachusetts is fortunate that our second witness, 
Juliette Kayyem, who just completed the Boston Marathon in a 
little over 4 hours--that makes me upset--is the first Under 
Secretary for Homeland Security for the Commonwealth. She 
serves as the liaison between the Governor's Office and all 
Federal, State and local agencies on Homeland Security. She is 
responsible for developing State-wide policy with a focus on 
preventing, protecting, responding to and recovering from any 
and all critical incidents. She also has direct oversight over 
the Massachusetts National Guard.
    Ms. Kayyem comes from her position from Harvard's John F. 
Kennedy School of Government, where she has been a lecturer in 
public policy. Since 2001, she has been a resident scholar at 
the Kennedy School's Belfer Center for science and 
international affairs, serving most recently as executive 
director for research. She is an expert in homeland security 
and terrorism, I know this, and teaches courses on law, 
homeland security and national security affairs.
    She and I served together on the National Commission on 
Terrorism, which before 9/11, reviewed how the government could 
prepare better for the growing terrorist threat and predicted a 
major attack on U.S. soil which sadly came to pass.
    Our third witness, Frank Cilluffo, who is here with his 
daughter, on Take Your Daughter To Work Day--Where is his 
daughter? We want to welcome you--He leads George Washington 
University's homeland security efforts on policy, research, 
education and training. He directs the Homeland Security Policy 
Institute, which has a research agenda that has spanned 
domestic terrorism radicalization, disaster management, 
emergency preparedness, pandemic influenza, intelligence and 
information sharing. Along my travels in the security field, he 
is someone who is always part of the panels we put together to 
try to learn the subject matter better.
    Mr. Cilluffo joined GW in April 2003 from the White House 
where he served as special assistant to the President for 
Homeland Security. Shortly after the 9/11 attacks he was 
appointed by the President to the newly created office of 
homeland security and served as the principal advisor to 
Governor Tom Ridge.
    Prior to his White House appointment, Mr. Cilluffo spent 8 
years with CSIS in senior policy positions with a Homeland 
Security focus.
    Ms. Harman. Without objection, all of your full statements 
will be inserted in the record. I now ask Mr. Bettenhausen to 
summarize your statement for 5 minutes. There is a time clock, 
so it will start blinking red just as you get to 5 minutes. 
Welcome.

    STATEMENT OF MATTHEW BETTENHAUSEN, EXECUTIVE DIRECTOR, 
  CALIFORNIA OFFICE OF HOMELAND SECURITY, STATE OF CALIFORNIA

    Mr. Bettenhausen. Thank you, Chairwoman Harman, Ranking 
Member Reichert, members of the subcommittee. We greatly 
appreciate the opportunity to have this discussion and 
conversation today about information sharing and terrorism 
prevention. We certainly are proud to call you one of 
California's very best and very own, Madam Chairwoman. We 
appreciate all of your support and leadership as well as the 
entire committee for their encouragement for support and 
leadership which has happened not only over the course of 
tragic events of 9/11, but since then, with the creation of the 
Department.
    Ms. Harman. We will give you an extension of time if you 
want to continue to talk about how great the subcommittee is.
    Mr. Bettenhausen. Thank you, I appreciate that.
    I think and I agree with the ranking member in my 
conversation with Chairwoman Harman before the committee too, 
we have to be careful as we look at the 5 years, and we move 
through the elections and the transition that we don't continue 
to reorganize and shake these things up. We have got to start 
solidifying actual action and implementation, and that is one 
of the things that I would like to emphasize here today.
    This is all about cooperation and partnerships. I got into 
Washington, DC late last night having spent some time with our 
friends and partners in Canada in British Columbia. Governor 
Schwarzenegger has recognized that he wants to have a close, 
and cooperative, and collaborative relationship with them and 
certainly with the upcoming winter Olympics that is critical.
    Borders are to longer defined simply by geography. 
California is on the border with Canada. Our ports of entry in 
Los Angeles, our airports, the shared maritime interests that 
we have in trade is the key to the Asian Pacific corridor and 
the ports that we share in bringing goods into the United 
States and driving the economy are critical.
    That idea of cooperation, coordination and collaboration is 
the emphasis that I would like to have in my overall remarks, 
because this is a philosophical point that we need to continue 
to emphasize with our Federal partners. Prior to 9/11 terrorism 
prevention, terrorism prosecution, terrorism internationally 
was exclusively the province of our Federal Government. We 
realized after 9/11, terrorism prevention is everybody's 
business. It is State and local government, it is across 
disciplines, it is individual citizen's business.
    I have given a number of examples in my written testimony 
from individual citizens. The worker at the Circuit City who 
noticed a training video and reported it in. The idea of ``See 
something, say something.'' That attack on Fort Dix.
    We also have State and local officers in Torrance, 
California who are investigating convenience store robberies 
which they were committing as it turns out in a model of 
Federal, State and local cooperations. A cell that was 
operating, committing the convenience store robberies to get 
the financing in order to do attacks on Jewish synagogues, 
military recruiting depots and National Guard Armories in Los 
Angeles. It was terrorism prevention in action. But it was the 
action of States and locals that uncovered this. They are the 
most important first responders and first preventers in a 
terrorism prevention. Until we truly and fully treat them as 
full and equal partners in the terrorism prevention mission, we 
are not going to be successful.
    So what I would like to talk about in terms of how we do 
this in making sure that State and locals are full and equal 
partners, I do go back to the theme of enlist, entrust and 
empower. We must enlist our local first responders and first 
preventers. There are only tens of thousands of Federal law 
enforcement agencies in this country across all the Federal 
agencies. But there are hundreds of thousands, nearly a million 
sworn law enforcement officers, security guards who are doing 
this. These locals are excellent and capable.
    We have to overcome the fact that our Federal agencies are 
not used to even working with each other, the walls that we 
have broken down, but most importantly working with us, and 
understanding what we can provide. It is not just that we have 
information requirements, we are probably their most important 
information producers. We have to collect and connect the dots 
if we are going to prevent the next terrorist act.
    We must entrust. We have to approve security clearances. We 
have to have a presumption of sharing information. It has to be 
not just about prosecution, it has to be just not about law 
enforcement. You need to value what we have, it should not be 
that we are considered as a nuisance to this mission. We must 
be brought in as full and equal partners in this collaborative 
relationship. Trust us, entrust us.
    Finally empower us. I think the President's national 
strategy on information sharing is a step in the right 
direction. Your 9/11 implementation bill lays the foundation, 
both for the finishing of this administration and the next 
administration, but it is critical for sustainment and funding 
for these things to encourage us to have the analysts to 
support our front line first responders who are out there day 
in and day out protecting the public and preventing terrorism.
    I see that my time is up, so I thank you for the 
opportunity to be here and I look forward to your questions.
    Ms. Harman. Thank you very much, Mr. Bettenhausen.
    [The statement of Mr. Bettenhausen follows:]

               Prepared Statement of Matthew Bettenhausen
                             April 24, 2008

    Chairwoman Harman, Ranking Member Reichert, and Members of the 
subcommittee, thank you for the opportunity to appear before you this 
morning to discuss the critical role State and local public safety 
agencies play in preventing terrorism and how the Office of 
Intelligence and Analysis can do more to enlist, entrust and empower 
our first preventers.
    Let me begin by taking a moment to acknowledge the Chairwoman's 
commitment to enhancing the preparedness of local communities for both 
intentional and natural disasters. Your leadership and role in 
overseeing the Department of Homeland Security has paid significant 
dividends. You and your colleagues have not been afraid to ask the 
difficult questions and the sense of urgency this committee has brought 
to homeland security issues has been a catalyst for productive change 
within the Department and at the operational level.
    This morning, I want to share with you why we need to enlist, 
entrust and empower State and local preventers and how invaluable 
fusion centers are to California's homeland security strategy. The 
progress being made by the Department of Homeland Security and the 
Department of Justice in this effort is noteworthy. Congress has also 
provided sound policy direction and the resources to ensure an 
effective network of fusion centers is built with the capability of 
protecting our communities and critical infrastructure from terrorist 
attacks. It is also important to recognize that our best efforts to 
share information will be in vain without a firm commitment at all 
levels of government to ensure fusion centers and analysts 
institutionalize policies to protect privacy and civil liberties. 
Finally, I want to highlight some of the areas where the Department's 
Office of Intelligence and Analysis can do more to enhance the 
effectiveness and sustainability of fusion centers.

                    STATE AND LOCAL FIRST PREVENTERS

    Prior to 9/11, State and locals were all too often an afterthought 
in counterterrorism efforts. This has proven to be a hard mindset to 
change. Many of our Federal partners underestimate the unique 
capabilities of State and local public safety agencies. There has been 
progress on enfolding locals into the counterterrorism effort, but we 
are not there yet. For this reason, I take every opportunity to remind 
my Federal partners that, as counterterrorism efforts evolve, we must 
work with our first preventers to uncover the recruitment, fundraising 
(money-laundering), networking and operational planning of Islamic 
extremists in the United States.
    Early in my career, I realized the need to enlist State and locals 
in our counterterrorism efforts. It was in the wake of the Oklahoma 
City bombing in 1995, while I was serving as a Federal prosecutor in 
Chicago. My colleagues and I in the U.S. Attorney's Office were busy 
looking through international flight data for a global nexus. In the 
meantime, an Oklahoma Highway Patrol trooper stopped a yellow 1977 
Mercury Marquis without a license plate. The driver of the car was 
Timothy McVeigh. The alert trooper arrested McVeigh for carrying a 
loaded firearm. Three days later he was identified as the man being 
sought in the nationwide manhunt.
    The Olympic Bomber case is another example of the critical role of 
local preventers. As the committee knows, Eric Rudolph conducted a 
series of bombings across the southern United States, which killed 
three people and injured at least 150 others. He declared that his 
bombings were part of a guerrilla campaign against abortion. Despite 
the efforts of the FBI, Rudolph was ultimately arrested by a local 
police officer in North Carolina who was on a routine patrol and 
observed Rudolph scavenging for garbage in a dumpster behind a Save-A-
Lot store.
    In a more recent case, the Fort Dix Six, a group of six radical 
Islamist men allegedly plotting to stage an attack on the Fort Dix 
military base in New Jersey, were arrested by the FBI on May 7, 2007. 
They were subsequently charged with planning an attack against U.S. 
soldiers. The alleged aim of the six men was said to be to ``kill as 
many soldiers as possible.'' Local law enforcement was alerted to the 
group when one of the suspects requested that a neighborhood 
electronics store convert a video tape to DVD that depicted the 
suspects firing weapons and shouting jihadist slogans in the Poconos. 
Store employees notified law enforcement, which identified and 
monitored the suspects until arresting them.
    Closer to home for the Chairwoman is the Torrance Case. In this 
case, Kevin James, a Muslim convert, founded a radical Islamic group 
called Jam'iyyat Ul-Islam Is-Saheeh (JIS), Arabic for Assembly of 
Authentic Islam, from his cell in Folsom Prison in California. James 
recruited fellow inmates to join a prison based terrorist cell and 
recruit both released inmates and new recruits to join his mission to 
kill those he considered infidels in the Los Angeles area. The break in 
the case came when local police officers in Torrance, California, 
arrested two men in connection with a string of armed robberies at 
convenience stores. During the investigation, the local police officers 
noticed Islamic extremist materials during one of their searches. With 
this new evidence, authorities began to unravel their more sinister 
intentions to attack military recruiting stations and Jewish sites in 
Los Angeles. Late last year, Kevin James pled guilty to ``conspiracy to 
levy war against the United States through terrorism'' and faces up to 
20 years in Federal prison upon release from State prison.
    International cases also rely on leads generated by local 
preventers. As was the case when local police in the United Kingdom 
discovered suspicious U.S. Navy information after arresting Babar 
Ahmad, the leader of a terrorist support cell and a computer specialist 
working on the now defunct Azzam.com, an Islamist extremist website. 
The previously classified information, planned movements of a U.S. Navy 
battle group, was found in Ahmad's room at his parent's home in London. 
After the discovery of these documents, officials in the United Kingdom 
alerted the FBI. U.S. authorities subsequently issued search warrants 
upon e-mail accounts associated with the Azzam.com websites and 
discovered e-mail communications from Abujihad (formerly known as Paul 
Hall) dating from late 2000 and the Fall of 2001 from his personal and 
military based e-mail accounts. Information gleaned through the 
original search ultimately led to the arrest of Abujihad.\1\ During the 
investigations of Abujihad, and his onetime roommate, Derrick 
Shareef,\2\ investigators learned of a discussion between the two to 
carry out a sniper attack on a military installation in San Diego.
---------------------------------------------------------------------------
    \1\ Abujihad was convicted March 5, 2008, of providing material 
support to terrorists and disclosing classified national defense 
information. His sentencing is set for May 2008 and he faces up to 25 
years in Federal prison.
    \2\ On November 29, 2007, Shareef changed his original plea and 
pled guilty to plotting a grenade attack on a Rockford, Illinois mall.
---------------------------------------------------------------------------
    These are just a few of the many cases where State and local public 
safety officials have been at the center of our national and 
international counterterrorism efforts. These examples underscore how 
State and locals are in the best position to discover and disrupt 
Islamic extremist activity in our communities.

         CALIFORNIA'S STATE TERRORISM THREAT ASSESSMENT SYSTEM

    To determine an accurate depiction of our adversaries, their 
intentions, and their capabilities, California moved quickly after 9/11 
to establish a Terrorism Threat Assessment System. The State Terrorism 
Threat Assessment System (STTAS) is responsible for regional and 
statewide information collection, analysis and sharing activities. The 
STTAS is comprised of four Regional Terrorism Threat Assessment Centers 
(RTTAC) and one State Terrorism Threat Assessment Center (STTAC). The 
RTTACs are located in San Diego, Los Angeles, San Francisco Bay Area 
and Sacramento. These locations mirror the Federal Bureau of 
Investigation areas of responsibility within California and are 
comprised of a mixture of State, local, and Federal public safety 
agencies.
    The State fusion center is designed to provide California's senior 
leaders with: situational awareness of identified threats; visibility 
of, and coordination with, the critical infrastructure of the State; 
and constant access to the latest local, State and national information 
analysis products and assessments. The STTAC provides: statewide 
assessment products; information tracking and pattern analysis; 
geographic reporting linkages; and connections with the latest national 
information from the FBI, DHS and other Federal agencies.
    The Regional fusion centers: integrate the intake, analysis, 
fusion, and synthesis of intelligence information with an emphasis on 
terrorist threat intelligence; identify patterns and trends that may be 
indicative of emerging threats; and provide relevant, timely and 
actionable intelligence products for the region. The RTTACs establish 
policies to share and exchange terrorism-related information and 
intelligence products with public and private sector organizations 
having public safety and infrastructure protection responsibilities.
    There are currently 15 personnel assigned, or pending assignment, 
to the STTAC from a mix of State agencies, including the State Office 
of Homeland Security, the California Highway Patrol and the California 
National Guard. The regional fusion centers vary in size from 15 
individuals in the Sacramento and San Diego RTTACs, 40 individuals in 
the Los Angeles RTTAC, and 44 individuals in the San Francisco Bay Area 
RTTAC.
    The State and regional centers are supported by a network of 
Terrorism Liaison Officers (TLOs) and a secure web-based information 
sharing system to distribute and receive information. The TLOs serve as 
the local public agency and private entity point of contact for all 
terrorism-related issues. At the local level, law enforcement and 
public safety agencies are designating TLOs who are trained in the 
review and assessment of local reporting and in conducting outreach to 
other public safety agencies, critical infrastructure operators and 
community groups. The TLO is the local agency point-of-contact for all 
terrorism-related alerts and suspicious activity reports, requests for 
information, warnings and other notifications from regional, State or 
Federal homeland security agencies. The TLOs review local-agency 
reports, manage local reporting and initiate or respond to requests for 
information. The TLOs have an ongoing relationship with other local 
agencies, especially those with daily contact in the community, and 
develop relationships with critical infrastructure sites within their 
respective jurisdictions, establishing a personal connection with their 
security and management staff.
    California has trained over 4,300 TLOs through a formal training 
program, approved and certified by both DHS and California Commission 
on Peace Officer Standards and Training (POST). We have also expanded 
the TLO program to include an initial group of over 70 individuals 
representing State agencies in Sacramento who will be connecting State 
government directly to the STTAC.
    With the support of the Federal homeland security grants, our 
future investments will include: (1) expanding the existing threat 
assessment analytical capabilities at the fusion centers; (2) expanding 
the training of Terrorism Liaison Officers; (3) expanding the existing 
State-wide information sharing technology platform; (4) expanding law 
enforcement counter-terrorism case de-confliction efforts; and (5) 
enhancing public and private sector information sharing partnerships.

          STATE AND LOCAL FUSION CENTERS NEED FEDERAL SUPPORT

    I first want to recognize the initiative the Department of Homeland 
Security has taken to embed DHS Intelligence Analysts in State and 
regional fusion centers. This effort is to be applauded. Similarly, I 
would be remiss if I did not recognize the contribution of the FBI 
Special Agents in Charge in California for their partnership and 
support of California's fusion centers. In particular, cooperation by 
the Los Angeles FBI office resulted in space being donated to house the 
Los Angeles area analysts. This collaboration continues, as the Los 
Angeles RTTAC is being ably led by Ms. Leslie Gardner of the FBI. I 
cannot underscore enough the value of these partnerships to the overall 
success of our fusion centers.
    The National Strategy for Information Sharing (Strategy) is also 
praiseworthy, as it provides clear and concise direction to all levels 
of government. The Strategy recognizes the critical role of State and 
local first responders and first preventers in preventing acts of 
terrorism. Being enfolded by this strategy validates the unique 
perspectives of State and local public safety agencies and represents a 
much needed change away from a Federal-centric approach to combating 
terrorism.
    We are committed to quickly implementing the Strategy and I am 
pleased to report that one of the key elements--suspicious activity 
reports--is being piloted in California by the Los Angeles Police 
Department (LAPD). The goals of the pilot program are to standardize 
internal processes and institutionalize counter-terrorism throughout 
the LAPD. The collection of this data will enable the LAPD, and other 
departments, to develop a measurement tool for terrorism-related 
behavior and activities to identify indicators of emerging threats.
    The establishment of the Interagency Threat Assessment and 
Coordinating Group (ITACG) is another positive step being taken by DHS. 
The ITACG has the potential to bring a State and local perspective to 
products produced by the Intelligence Community. The ITACG also has the 
potential to enhance our ability to turn information analyzed at the 
national level into action at the operational level. However, more work 
needs to be done to better define the information requirements of the 
Intelligence Community from State and local public safety agencies. 
Locals need clearer direction on the types of information that should 
be shared.
    At the operational level, fusion center analysts have been pleased 
with the Department of Homeland Security's deployment of the Homeland 
Security Information Network (HSIN), a system for sharing sensitive 
analytical products. Under Mr. Charlie Allen's leadership, the 
Department has improved both the timeliness and the quality of the HSIN 
products. Responses to requests for information from State and local 
agencies have also been more timely.
    Another positive development has been the establishment of the 
Homeland Security State and Local Intelligence Community Interest 
(HSIN-SLIC). The HSIN-SLIC provides a secure forum for analysts from 
over 43 States and 6 Federal agencies to directly share information 
with each other. The forum is also supported by weekly threat 
teleconferences. Early feedback has indicated that this is one of the 
more promising venues to share information horizontally and to identify 
emerging national threats.

       FUSION CENTERS' ROLE IN PROTECTING CRITICAL INFRASTRUCTURE

    Fusion centers should also be leveraged to enhance critical 
infrastructure and prevention capabilities. DHS should act on the 
recommendations made by the State, Local, Tribal and Territorial 
Government Coordinating Council (SLTTGCC) to establish the critical 
infrastructure and key resource desks (CIKR Desk) at State fusion 
centers. (see attachment). As the SLTTGCC noted, the key function of 
the CIKR Desk in fusion centers would be the integration of threat, 
vulnerability, and consequence data to develop information products for 
public safety and private entities with security responsibilities.
    In California, fusion centers are being utilized to extend training 
to our private sector partners. At the Governor's direction, the 
requirements for licensed security professionals were modified to 
mandate enrollment in a 4-hour terrorism-awareness training program. 
This common sense policy change will ultimately provide terrorism 
training to the approximately 400,000 licensed security professionals 
in California. We have also implemented a terrorism-awareness training 
program amongst professional and trade associations to ensure that they 
have current trend and pattern information, threat assessments and 
connectivity to their RTTAC. Additionally, the State fusion center is 
working closely with the agricultural industry to protect this critical 
resource by formulating an initiative with the California Department of 
Food and Agriculture to deliver a 1-day TLO course to each of the 58 
county agriculture commissioners. Furthermore, a partnership is being 
formed with the State's Rural Crime Task Force to train its members in 
terrorism awareness and California's information sharing protocols.
    The RTTACs have been working closely with my office to identify, 
prioritize and protect the State's broad array of critical 
infrastructure and key resources (CI/KR). These efforts have been 
closely coordinated with a broad group of private-sector partners--
those entities that own and operate the bulk of the State's assets and 
resources. Such partnerships include site owners and operators, first 
responders, public and private organizations and associations, and 
other levels of government, including local, State, Federal, and tribal 
partners.
    The Automated Critical Asset Management System (ACAMS) is a Web-
enabled information services portal which helps our State and local 
governments build critical infrastructure/key resource (CI/KR) 
protection programs. ACAMS provides a set of tools and resources that 
help law enforcement, public safety and emergency response personnel: 
collect and use CI/KR asset data; assess CI/KR asset vulnerabilities; 
develop all-hazards incident response and recovery plans; and build 
public/private partnerships. ACAMS is a secure, online data base and 
data base management platform that allows for the collection and 
management of CI/KR asset data; the cataloguing, screening and sorting 
of this data; the production of tailored infrastructure reports; and 
the development of a variety of pre- and post-incident response plans. 
The Department of Homeland Security provides ACAMS for free and ACAMS 
is used in more than 32 States and territories.

                 PROTECTING PRIVACY AND CIVIL LIBERTIES

    In all of these efforts, we are fully committed to protecting 
California's residents and respecting their privacy, civil rights and 
civil liberties. Our fusion centers must comply with our Federal and 
State Constitutions, laws, regulations and policies regarding the 
protection of privacy, civil rights and civil liberties. Because 
protecting these rights is so fundamentally important to our democracy 
and our office's mission, we established the State Terrorism Threat 
Assessment Advisory Group (STTAAG) to provide independent and informed 
advice. The STTAAG is comprised of a broad and diverse membership of 
Californians who bring a wide range of experiences including public 
safety, national security, community service, communications, and 
academia.
    The STTAAG Chair is Elizabeth Rindskopf Parker, Dean of the Pacific 
McGeorge School of Law and a former CIA and NSA General Counsel. The 
Vice Chair is Craig Manson, who previously served as Assistant 
Secretary for Fish, Wildlife and Parks in the U.S. Department of the 
Interior and as a Judge in the Sacramento County Superior Court. The 
membership also includes Rabbi Abraham Cooper of the Simon Wiesenthal 
Center, Dafer Dakhil of the Omar Ibn Al Khattab Foundation, prominent 
members of the Sikh community, the California Broadcasters Association, 
and representative from various public safety organizations.
    Over the past year, we have formalized the existence of the STTAAG 
through the adoption of a charter. This charter reflects the two 
primary objectives of the group--providing independent advice on 
privacy, civil rights and civil liberties issues; and, on how our 
organization can engage the people we serve is a constructive dialog on 
who we are and what we are doing to enhance their collective security 
in a manner which respects their individual liberties.
    Along these lines, we co-hosted an outreach event with the Simon 
Wiesenthal Center last November. A substantial number of my senior 
staff, along with our Federal and local partners in Los Angeles, spent 
several hours with Southern California business, community and 
religious leaders. We provided them with information on the terrorist 
threat, the measures that we are taking to mitigate that threat and the 
role of the citizen in planning for and preventing terrorist attacks 
against our homeland. It was an incredibly positive session and we hope 
to host similar events on annual basis around the State.

    BUILDING A MORE ROBUST AND SUSTAINABLE NETWORK OF FUSION CENTERS

    In previous hearings this subcommittee reviewed the findings of the 
February 20, 2008 fusion center report issued by CENTRA Technology, 
Inc. The report focused on three areas in need of improvement: (1) 
identifying the priority information needs for both the Department and 
for State and local fusion centers; (2) streamlining the process for 
responding to requests for information; and (3) enhancing the open 
source analytical capabilities of analysts in State and local fusion 
centers. In general, the Department has acknowledged that these are 
indeed areas that should be acted upon.
    I look forward to working with the Department to assist them in 
their effort to offer additional open source training opportunities for 
our first preventers. We are also committed to ensuring timely and 
accurate responses to requests for information. The Department should 
be certain that requests initiated, and responsed to, by regional 
fusion centers are carbon copied to State fusion centers. This will 
ensure States have optimal situational awareness and enhance their 
ability to identify emerging trends. Additionally, the Department 
should be clear in issuing their priority information needs and provide 
routine feed back to State and locals that contribute information to 
the Intelligence Community.
    To be effective, fusion centers must be staffed with well trained 
and properly cleared personnel. The National Strategy for Information 
Sharing acknowledges the importance of personnel and states, ``the 
Federal Government will support the establishment of these centers and 
help sustain them through grant funding, technical assistance, and 
training.''\3\ Congress also recognized the value of staffing fusion 
centers in passing H.R. 1, the Implementing Recommendations of the 9/11 
Commission Act (9/11 Act), which explicitly allows States and locals to 
utilize homeland security grants to hire personnel to staff fusion 
centers.
---------------------------------------------------------------------------
    \3\ National Strategy for Information Sharing, October 2007.
---------------------------------------------------------------------------
    Notwithstanding the urgent operational need and unequivocal 
legislative intent, the Department has continued to issue guidance 
(Information Bulletins 235 and 281) regarding the use of Federal funds 
under the State Homeland Security and Urban Area Security Initiative 
Grant programs which has been extremely counterproductive and 
detrimental to State and local efforts to build and sustain a network 
of fusion centers and contravenes the clear intent of Congress. I urge 
the committee to eliminate the unduly burdensome and detrimental 
guidance.
    State and locals have invested a lot of time, money and personnel 
in terrorism prevention and have absorbed the vast majority of the 
costs for prevention, protection and infrastructure preparedness with 
State and local funds. Creating, establishing and sustaining fusion 
centers has been a success story. Staffing them with qualified, cleared 
analysts has been and remains a challenge. These analysts and fusion 
centers also clearly work to the benefit of the Federal Government by 
allowing for better information sharing and real time communication 
during a crisis.
    Putting unnecessary restrictions on funding while we are still in 
the developmental stage of the fusion centers and information sharing 
is unwise. The lack of analysts will have adverse consequences on our 
infrastructure protection efforts, including their review of classified 
information and providing information back to DHS's Infrastructure 
Protection Directorate. California is conducting a number of 
comprehensive reviews with the Department, and fusion center analysts 
are assisting in these efforts. We have also developed and invested 
significant resources in the identification and training of several 
thousand TLOs at government and private agencies throughout the State. 
Without a functioning fusion center system, the information gathered by 
these TLOs will be at risk of not being collected, as the system needs 
constant attention and skills refreshment.
    As I mentioned earlier, embedding DHS personnel in regional and 
State fusion centers is a positive development. DHS should take every 
opportunity to replicate the success of this initiative by detailing 
analysts from other components of the Department. Fusion centers and 
should be the logical base of operations for DHS's Protective Security 
Advisors, rather than being assigned to Secret Service field officers. 
Additionally, Congress has provided additional resources to the 
Department to deploy Mass/Surface Transit Security and Aviation 
Security analysts. These personnel would also be good candidates to 
embed in regional and State fusion centers. Indeed, all agencies and 
Departments with either law enforcement or emergency response 
capabilities should have a significant presence at regional fusion 
centers. Currently the United States Coast Guard, Federal Bureau of 
Investigation, and the Drug Enforcement Agency participate in 
California's regional fusion centers. Our prevention, analytical and 
information sharing capabilities could only be enhanced by a sustained 
commitment from the Immigration and Customs Enforcement Agency, the 
Alcohol, Tobacco, and Firearms and Explosives Agency, and Transit 
Security Administration.
    As we build this nationwide matrix of connected State and local 
fusion centers staffed by a multi-disciplined analysts from the public 
safety field, it remains important to ensure that barriers to 
information sharing from traditional Federal, State and local law 
enforcement agencies are appreciated and reduced consistent with the 
necessary protection of privileged information. We are building a new 
capability across the country, focused on prevention, and the key to 
its success must be the widest possible exchange and access to analysts 
and information. Great progress has been made, but work remains on 
demonstrating that Homeland Security professionals and first responders 
in the fusion centers are equal and relevant partners.
    DHS should also expedite the fielding of the Homeland Security Data 
Network (HSDN) system to the State fusion center. This long awaited 
project is a needed improvement to California's information sharing and 
analytical capabilities, as the HSDN system will allow the STTAC and 
OHS analysts access to some levels of classified information and 
connectivity with the RTTACs and DHS at the classified level.
    Finally, security clearances--both in terms of availability and 
proper level--remain an issue for State and locals. Perhaps the most 
recent and best example I can provide you with is the classification of 
the new Presidential Homeland Security Directive regarding cyber 
security at the Top Secret level. Unfortunately, the Department has not 
recognized the need to issue Top Secret clearances to State and local 
public safety officers--even when those individuals bear the 
responsibility of implementing national security directives.
    Again, thank you for this opportunity to be here today. I will be 
happy to take your questions.
                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Ms. Harman. I think we may frame your oral testimony. It 
is the core mission of subcommittee. I would just add that your 
example of Torrance, California is one we all know. We had a 
hearing in Torrance, which is in my congressional district, 
about how successful that was.
    Ms. Kayyem, please summarize your testimony in 5 minutes.

 STATEMENT OF JULIETTE N. KAYYEM, UNDER SECRETARY FOR HOMELAND 
   SECURITY, EXECUTIVE OFFICE OF PUBLIC SAFETY AND SECURITY, 
                 COMMONWEALTH OF MASSACHUSETTS

    Ms. Kayyem. Thank you very much, Chairwoman Harman and 
Ranking Member Reichert. I am also pleased to be here. I will 
take Matt's compliments of the subcommittee and continue.
    I think it is great this subcommittee is thinking about the 
future and also thinking about how to make what is already 
there better, rather than shifting around again, because from 
the State perspective, enough shifting so to speak. We need to 
sort of make a plan and stick with it.
    In my written testimony, I discuss our Fusion Center. What 
it is, what it is doing, how it conceptualizes itself. It will 
be very different from California's many Fusion Centers in 
other States. I think that is good and right.
    I think given the threats and the particular concerns of 
any given State and any given governor considering crime or 
whatever else that we don't want one size doesn't fit all. We 
don't want to think of Fusion Centers as these sort of new 
intelligence beasts not linked to the public safety entities 
that they have to contribute to.
    I actually compliment the law enforcement intelligence 
relationship that exists in most Fusion Centers. I think when 
the media says those Fusion Centers are just doing criminal 
analysis, that is actually right. We need to make it all 
hazards, all threats and make it integrated into the public 
safety community.
    So with my time, let me talk about quickly what works and 
what is not working on a very specific level and then how we 
might think about it in the future. I&A and DHS, in its 
intelligence functions, has to think in the world that exists 
now where is their value added, because we have so many players 
in this realm. We have the JTTF in our State, which is 
excellent. We have any other number of counterterrorism, 
antiterrorism units. So what is their value added? Basically 
their value added is with the States and locals and their 
consumers.
    What has worked in that regard is we actually have an I&A 
specialist. She had been a member of the Fusion Center in our 
Fusion Center. It is great. I have one person to go to. The 
quagmire that is DHS for a lot of us, it is answered by one 
person. She may not have all the answers, she knows how to get 
them to me. Requests for information come back quickly. We have 
particular threats in our State. We have high profile people 
coming to the universities. We need to know stuff fast. I can 
go to one person. I don't have to come down here, and figure 
out who to talk to. I think that is great. The CENTRA report 
promoted that. To the extent, you can get more of them into 
Fusion Centers, it makes a lot of sense.
    What ought to be fixed? The truth is that as a consumer of 
the intelligence at I&A is pushing out. That is our Fusion 
Center in many respects. There are three main problems right 
now. One is and I say it in my written testimony, that the 
intelligence apparatus here in the District of Columbia 
sometimes, I think, lives by the motto ``publish or perish'', 
the academic model.
    There is just too much, it is not helpful to me from the 
prospective of a State Homeland Security advisor. Great 
examples of relatively public example. This year alone we have 
seen an increase in the Osama bin Laden tapes. The content is 
not that interesting. It is the same tape over and over. But as 
we reach this transition and certainly a Presidential 
transition over the course of this year, what I want it know as 
a consumer of the intelligence, because I can hear about the 
tapes on CNN, is how is DHS thinking about this? How is I&A 
thinking about what this means for transition? Are we worried? 
Should I be worried? Are these more or less? It is the kind of 
intelligence themes rather than the fact of it that matters 
more to me. Because based on the Osama bin Laden tape, we are 
not going to recommend from an operational level to ramp up the 
State Police or to get MEMA active, Massachusetts Emergency 
Management Agency activated. That is what I think thematically. 
We have the JTTF for specific investigations.
    Secondly, grants. You know, I won't talk about grants 
except for one thing, I can not wake up rationally one day and 
be told by DHS that 25 percent of my Homeland Security funds 
have to be spent on IED prevention and response planning. When 
I haven't been told that the year before, but more importantly, 
I&A has never told me that. The grants are not matching the 
intelligence. So I wake up thinking how am I going to tell this 
to the people who want the money. That is a huge problem.
    Third, treating us maturely, just picking up on what Matt 
said. The spy satellite falling from earth was not a movie for 
many of us, it was real. What we were getting was just not 
helpful from an operational perspective. That is how we are 
view ourselves. We are just making operational recommendations. 
I don't have fire trucks. We are just saying react.
    It was not helpful, let's just say. Whether the Department 
of Defense, or Department of Homeland Security or, as I say in 
my written testimony, the Secretary of Agriculture is in 
charge, I could care less. What I wanted to know and what 
wasn't provided to me is how operationally should we be 
thinking about this? We were treated like kids, I mean 
immaturely.
    Boston Globe has a banner headline about it and I don't 
have any good advice to give to either the governor or down to 
the operational entities except for cross your fingers and 
let's hope DOD shoots it down. That is not helpful. So in terms 
of the maturity factor, I would really push that. So that is 
how those changes would make a lot of sense for the next 
administration in terms of what I need as a consumer of 
intelligence. My written testimony gets into some other aspects 
of the Fusion Center. Thank you very much.
    Ms. Harman. Thank you very much.
    [The statement of Ms. Kayyem follows:]

                Prepared Statement of Juliette N. Kayyem
                             April 24, 2008

    It is an honor to testify in this important matter, ``Moving Beyond 
the First Five Years: Evolving the Office of Intelligence and Analysis 
to Better Serve State, Local and Tribal Needs.'' It is especially an 
honor to be here in front of Chairwoman Harman, who has not only been 
an exceptional leader in this field, but a friend and mentor to me as 
well.
    I hope my testimony today will highlight some of the exceptional 
work performed by our Commonwealth Fusion Center, provide guidance for 
how this committee might think about the relationship between the 
States and the Department of Homeland Security (DHS) regarding 
intelligence efforts, and provide some thoughts on what does and does 
not work in the structure that now exists. Since this committee is 
already familiar with many of the challenges facing fusion centers, 
including continuing funding by homeland security grants, I will focus 
my discussion instead on themes and priorities. Of course, like every 
other homeland security advisor, I worry about sustainability and 
continued funding of the State's many efforts, but enough said in that 
regard.
    The last time I testified before this committee, I was a lecturer 
at the Kennedy School of Government, and my focus then was on how the 
Federal Government could better collect and analyze intelligence. For 
the last year, I have served as the Under Secretary of Homeland 
Security for the Commonwealth of Massachusetts. In this position, I 
report to Secretary of Public Safety Kevin Burke. In addition, I am 
Governor Deval Patrick's federally designated homeland security 
advisor. In many respects, the status of my position reflects the 
trends and changes within homeland security on both the Federal and 
State level. Just as Hurricane Katrina painfully taught us that a 
Department solely focused on terrorism may be at risk of undervaluing 
threats brought by mother nature, a State homeland security apparatus 
not aligned with the daily needs of public safety entities or first 
responders could not survive or remain relevant.
    In this capacity, then, Governor Patrick and Secretary Burke 
charged me and our public safety agencies with evaluating the status of 
homeland security in the State to promote successful integration of our 
public safety and emergency management operations. Our legacy is in 
ensuring that policies and practices better protect our citizens from 
harm, wherever it may arise. So, first and foremost, this meant 
requiring that the State had plans and policies in place to guide the 
significant homeland security funds coming to the State, whether they 
be for interoperability, evacuation planning, resource management, 
recovery efforts or, as I will highlight here, intelligence efforts.
    The Commonwealth Fusion Center, the CFC, is, by Executive Order, 
the State's designated fusion center and was established in October, 
2004. The Boston Regional Intelligence Center, the BRIC, serves as the 
UASI's primary fusion entity, and we continue to ensure that both of 
their efforts are cooperative and, to the extent practicable, not 
duplicative. DHS needs to ensure that limited resources, capabilities 
and information do not unnecessarily create competition, but ensure 
cooperation. We have a very good working relationship with the BRIC, 
and the Boston police for that matter. DHS can play a very useful role 
in ensuring that resources are shared to create a unified system.
    The CFC is, like most fusion centers, part of our State police, 
reporting through the chain of command to the Colonel of the 
Massachusetts State Police (MSP). While in the past newspaper articles 
and commentators have decried the fact that many fusion centers are 
joint tasked--intelligence and law enforcement based--I think those 
concerns are ill-founded. Indeed, I can't imagine a structure in which 
a fusion center was not, in major respects, focused on traditional 
crime analysis, providing information to localities and receiving 
important criminal trends from them in return. A fusion center that was 
solely terrorism focused could not sustain itself, not given the 
intelligence that is out there nor the competing needs of Governors and 
Mayors who are, as we are, concerned about crime. Because traditional 
crime often serves as a means for more nefarious or dangerous 
activities, we have to focus our efforts holistically. The true power 
that resides at the State and local level of law enforcement vis-a-vis 
terrorism prevention is not some grand new intelligence mission, but 
rather a culture of sharing the product of the good work that has been 
going on for years. The information that police officers routinely 
collect in the course of their normal duties is the same information 
that may identify terrorist financing or a pre-operational cell. It is 
also, it should be noted, the same information that a local chief can 
use to identify criminal hotspots or emerging trends.
    To that end, we are working to put information and tools in the 
hands of State and local law enforcement that will enable them to 
detect and track precursor crimes as well as other trends. The 
Statewide Information Sharing System, or SWISS, has been funded by our 
homeland security dollars and while available and utile to all 
contributing departments, it will drastically enhance the CFC's 
homeland security and traditional crime missions. The dual-use concept 
is thoroughly ingrained in our homeland security strategy so that we 
might both meet head-on and mitigate the challenge of sustainability. 
Indeed, our fusion center is so integrated into the workings of the MSP 
that it is financially sustained wholly as part of the current 
operational costs of the MSP. While homeland security funds focus the 
CFC's efforts and training, we are not presently facing a wholesale 
crisis or the potential loss of analysts as is occurring in other 
fusion centers.
    What is interesting here, however, is that not until recently has 
there been a discussion by DHS with States and localities on how the 
Federal Government could access that information in a strategic manner. 
A recent article in the Los Angeles Times highlights the LAPD's efforts 
to utilize some standardized form that would serve as a trigger for 
suspicious reporting to DHS. That was a local effort, and to our 
knowledge the most proactive attempt to treat what the fusion centers 
are doing as relevant to Federal threat gathering. We do not need a 
State-by-State capacity to access information about specific 
investigations or persons; indeed, once an individual jurisdiction 
sends information to the FBI under Guardian, we no longer have 
``peeking'' ability. What we need is a system in which the trends or 
activities that are reported to the DHS Office of Intelligence and 
Analysis (I&A) are done so in a systematic way, and made transparent to 
those who would need to know the information. Without that capability, 
the efforts on the State level will be of little value to DHS.
    The CFC has, like most fusion centers, been an evolving entity. I 
sometimes imagine it like Goldilocks, searching for the ``just right'' 
fit. Ours began, like many of the post-9/11 entities, as an answer to 
the call from the Federal Government to help prevent the ``next 9/11.'' 
The changes that have occurred in the CFC, and that will continue to 
occur, happen because of the unique needs of our State and the changing 
nature of the intelligence we receive.
    So, what I want to lay out here are my thoughts at this moment in 
time, with an eye to guiding this committee, as well as DHS, on 
bettering our collective efforts in the future. The CFC was one of the 
pilot fusion centers in the recent CENTRA report, and we learned a lot 
in that process. Where I critique, it is only to urge a more thoughtful 
assessment for the future; where I compliment, it is to provide, 
however anecdotally, some evidence where efforts ought to be sustained.
    To begin, it might be helpful to simply lay out who is, and isn't, 
at the fusion center now and what they do. The core of the CFC is 
staffed with MSP personnel, who first and foremost are responsible to 
their chain of command. Representatives from other agencies include one 
Federal Bureau of Investigation (FBI) analyst, one agent and one 
analyst from the Bureau of Alcohol, Tobacco, Firearms and Explosives, 
one counter-drug analyst from the Massachusetts National Guard, one 
analyst from the Department of Correction (currently deployed to Iraq), 
one representative from DHS I&A, one police officer from CSX railroad, 
and a Geographic Information Systems specialist from the U.S. Army 
Civil Support Team. In addition, several MSP troopers under the direct 
command of the CFC, and therefore the Executive Office of Public Safety 
and Security, are assigned to the FBI Joint Terrorism Task Force (JTTF) 
for specific investigation support.
    The primary focus for today's hearing is on the Office of 
Intelligence and Analysis, and how it works with State fusion centers. 
We are fortunate to be a State with a designated I&A analyst. She had 
previously worked at the fusion center, and so her knowledge of it, and 
the State itself, has been a tremendous asset.
    She is, for the fusion center, and for me specifically, our one 
stop shopping. While she may not have every answer at hand, she knows 
how to get it for us. We should not underestimate how important that 
is. DHS, for any State, can be both amorphous and large. In 
Massachusetts alone, the DHS entities--from ICE, to Coast Guard, to 
FEMA, to a critical infrastructure analyst, to chemical industry 
regulators, to TSA--are all professional, but from the perspective of a 
State, are also too numerous to count. While FEMA has taken the lead on 
trying to integrate these entities, the truth is that their mission and 
chains of command so vary that it can be difficult. For us to have one 
liaison that can tap into, at the very least, intelligence efforts at 
DHS, and across the Federal Government, has proven exceptionally 
helpful. There are, after all, 16 Federal agencies that make up the 
Intelligence Community, all attempting to assess the persistent and 
evolving threats this Nation faces. It may be, one wonders, too many 
for the Federal Government; it is certainly too many for a single 
State. As one of our fusion center analysts noted, our I&A analyst 
provides a mechanism to reach into the ``quagmire'' and get the 
information and resources needed by the State.
    This is particularly true in one aspect of our needs: Requests for 
Information (RFI). Working with the CFC and the BRIC, and due to the 
CENTRA assessments, I&A submitted recommendations for creating a 
process which would efficiently serve the State's needs. This process 
was concluded before the CENTRA report findings, but is supported by 
that report. While I cannot disclose the details of the requests we 
have made, they have revolved around unique aspects and threats to our 
State and to Boston, whether they be related to critical infrastructure 
or visits by foreign dignitaries. I&A provides connectivity and rapid 
response for us; some requests are returned with information within 
hours of being relayed. This information can then be utilized to guide 
operational planning by the State police or local law enforcement.
    There are other benefits, including access to secure cell phones 
for State designees and getting through the red tape that often is 
involved in security clearances. Indeed, in a recent trip I took to 
Paraguay, a Nation that has a relationship with the State's National 
Guard, our I&A analyst was able to successfully transition our security 
clearances to the State Department with 1 day's notice.
    Thus, the physical presence of a single person who can tap into 
DHS, who knows why we are asking and what it means for the State, has 
gone exceptionally far in our relationship with DHS regarding 
intelligence efforts.
    However, it is in the CFC's role as a consumer of intelligence that 
many of the more persistent difficulties arise. First, the CENTRA 
report, which I have studied, places tremendous emphasis on making 
intelligence more accessible to States and localities. That is an 
important effort. But, while DHS focuses these efforts on ensuring that 
the quantity of information getting to us continues to flow, we are 
likely similar to many other States in wondering whether we aren't at 
risk of threat assessment fatigue.
    Let me put this another way. We have placed so much focus on 
ensuring that intelligence flows horizontally and vertically from and 
to State and Federal Governments that we may be at risk of the 
intelligence version of the often quoted academic trajectory: publish 
or perish. The quantity of information coming to us, often without much 
reference to either its strategic or tactical relevance, is 
overwhelming. As a State, we are left in a bit of a dilemma: distribute 
the information and risk triggering responses that are not justified by 
the validity of the intelligence or simply close-hold the information 
and be at risk of recreating the very stovepipes this whole effort was 
meant to destroy. Thus, while DHS assesses its own intelligence 
capabilities in the years to come, and under a new president from 
either party, the quality of the intelligence being shared has got to 
be an essential aspect of that conversation.
    A relatively public example may be helpful. In 2008, there have 
been a number of Osama bin Laden audiotapes. We received notification 
of each of them by DHS (as well as by the FBI) but also, I must admit, 
by CNN. Their substance, for those of us who follow these things, was 
nothing novel: the literal rantings of the terrorist against everything 
associated or affiliated with the United States. But, as we all know, 
we need to remain exceptionally vigilant during times of democratic 
transition; both Spain and the United Kingdom were victims of terrorist 
attacks immediately before or immediately after a change in government. 
So while the fact of the tapes didn't seem to raise anything new in our 
mind, and the literal statements didn't seem particularly worrisome, as 
more and more audiotapes came out (and may continue to be released), we 
would want to be in a position to know how the Federal Government is 
assessing this, how are they thinking through this summer and fall of 
transition, and whether we shouldn't be doing the same. It is that kind 
of strategic guidance that would be helpful.
    I am relatively confident that any information that is worthy of a 
preliminary or criminal investigation will be properly vetted and 
analyzed by our JTTF, where many of our CFC troopers work. But, for the 
majority of information, call it white noise or background 
atmospherics, we are simply consumers, not quite able to decipher 
whether there is any strategic relevance to so much information, but 
pretty confident that our operational assessments will not change.
    Second, and this is not something we can fix on the State level, 
DHS needs to ensure that the kinds of guidance we are receiving from 
other DHS entities or other Federal entities is aligned with the very 
intelligence we are receiving from I&A. Most recently, the States 
received guidance and priorities for the major State homeland security 
grant cycle, which concludes in May. This is the major grant that 
States and the UASIs receive to support first responder capabilities. 
While we know that IEDs continue to be a threat in Iraq and against our 
soldiers abroad, no intelligence we had received from DHS or any 
Federal entity prepared us for the explicit focus that the grant now 
has on IED prevention, protection, and response planning. To be clear, 
this is an important effort, one that needs attention and one that we 
have and will continue to address, in particular with our critical 
infrastructure program, which I will discuss further in a moment. But, 
by explicitly focusing on IEDs, we were left wondering whether we 
proverbially didn't know what we didn't know. Or, for another example, 
the Buffer Zone Protection grants are annually distributed to critical 
infrastructure sites to buttress prevention and law enforcement 
efforts. At the same time, some specific industries--say 
telecommunications or water purifying sites--will be chosen for site 
visits. From what we know, on the State level, these industries are 
chosen without us knowing why, and certainly without the industry 
knowing why. It may be, as I believe now, that DHS is doing due 
diligence and ensuring that States focus on many different sectors. 
But, since there is no intelligence to decipher why a specific industry 
is chosen, or in one case in our State, a specific site, we are left 
explaining to our private sector partners to simply accept the 
designation, trying to assure them that they are not at increased risk.
    This gets me to the final comment on the challenges of our 
``consumer'' role. Intelligence can be inherently vague and hard to 
define; with it, comes a tremendous amount of responsibility. While we 
continue to live with threats, from terrorists or bad actors or even 
from mother nature, the knowledge of those threats demands that those 
of us who work and respond to them act professionally and in a reasoned 
fashion. When intelligence goes from atmospherics, to potentially a 
real threat, we need to ensure that the very processes we have put into 
place are utilized and reinforced. This was made entirely clear from 
our recent responses to the potential consequences of an NRO spy 
satellite falling to earth. From my perspective, I don't really care if 
the Secretary of Defense, the Secretary of Homeland Security or even 
the Secretary of Agriculture, if he is so inclined, is designated the 
principal Federal officer for an event. The concern is that, as the 
other homeland security advisors shared information they were receiving 
in that 2-week period leading up to the successful Defense Department 
downing of the satellite, it was clear that we simply didn't have a 
unified notion of how we ought to prepare our public safety agencies, 
let alone the public. There was also a lack of a reality check in all 
the chaos that could answer whether the real issue at hand was one of a 
danger to the public for emergency management planning purposes, or a 
danger to our national security in that secret information might be 
disclosed if pieces of the satellite fell in adversary hands. It was in 
that vacuum that, I believe, each State likely planned differently, 
based on information that we all believed was probably not forthcoming. 
Perhaps it was because there was confidence that the Defense Department 
would successfully shoot down the satellite, or perhaps because the 
trajectory couldn't actually be determined, or maybe we knew less 
because the trajectory never made its way to New England, but it was in 
that vacuum that both paranoia and gossip gets started, and when 
confidence in the entire process gets undermined. The States must be 
treated as mature partners in these intelligence efforts.
    As we look forward as well, I want to add two important efforts 
into the mix of how we should be thinking of DHS and I&A intelligence 
functions in the future. We need to continue, as we do in all homeland 
security efforts, to provide policies and practices that will be dual-
use and respond to many hazards. Thus, as we think about the legacy of 
fusion centers and their continuing viability, one of the major arenas 
where they will and can provide unique value is in critical 
infrastructure assessments. In the past, our State's critical 
infrastructure assessments were locally based, providing the State with 
hundreds of potential and vulnerable sites, ranging from nuclear 
facilities to local high schools. Both are, of course, important, but 
we had no mechanism to focus these efforts on risk reduction and, from 
the perspective of the State, response needs.
    Specific intelligence against a particular site, and our response 
to that information, is different than the kind of analysis we are now 
supporting through the fusion center in Massachusetts. Indeed, many of 
the homeland security dollars going to the CFC are now supporting 
training and efforts related to creating a unified critical 
infrastructure assessment tool, known as ACAMS, which is supported by 
DHS. We know, and explicitly express in the Commonwealth's State 
Homeland Security Strategy,\1\ that in order to effectively carry out 
their missions, public safety officials and policymakers need a 
comprehensive understanding of the vulnerabilities of assets, systems, 
networks, and functions that provide critical services to the people of 
the Commonwealth. This knowledge will drive public safety and public 
policy decisions regarding preventative and protective measures, as 
well as response activities to natural and man-made incidents. We are 
committed to understanding and assessing risk in the Commonwealth by 
ranking what assets are in the State based upon their vulnerabilities, 
whether they are likely to be under threat, and how their destruction, 
through any means, would impact the State. ACAMS and the CFC provide a 
State-wide, coordinated approach to the identification, prioritization, 
and protection of critical infrastructure and key resources that can be 
shared with important stakeholders and emergency response personnel. 
For this to be a successful effort, we must also partner with I&A to 
ensure that their strategic knowledge is shared and disseminated.
---------------------------------------------------------------------------
    \1\ http://www.mass.gov/
?pageID=eopssubtopic&L=3&L0=Home&L1=Homeland+Security+%26+Emergency+Resp
onse&L2=State+Homeland+Security+Strategy&sid=Eeops.
---------------------------------------------------------------------------
    Another such critical infrastructure initiative that has recently 
begun to take shape at the CFC in regard to critical infrastructure is 
a relationship between the CFC and the Nuclear Regulatory Commission 
(NRC). At the recent fusion center conference in San Francisco, it was 
brought to our attention that there exists an NRC database cataloging 
suspicious activities reported by utility companies throughout the 
country. Being a State with one active nuclear power plant and two 
others in bordering States that affect Massachusetts' communities 
within the 10-mile emergency planning zone, we were intrigued by this 
information and the opportunity to further our critical infrastructure 
protection efforts utilizing the NRC database. We have reached out to 
the NRC and are beginning a process in which the NRC, the CFC, and our 
emergency management agency will communicate on issues of suspicious 
activity involving radiological threats.
    I believe that these efforts, in conjunction with DHS and I&A, are 
really the foundation of a legacy for fusion centers nationwide. Not 
simply because we can better prevent and respond to terrorist threats 
against our critical infrastructure, but also because we can know, 
beforehand, how we might prioritize any number of important public 
safety and public policy needs.
    Finally, and this is something that I know Chairwoman Harman 
promotes, we need to continue to demand that fusion centers are as 
transparent as possible, ensuring that they serve our important public 
safety needs in a democratic society. There will always be a tension 
between liberty and security, but the tension need not impede honest 
discussion and even evaluation. I believe, as someone who began her 
career in the Justice Department's Civil Rights Division, and someone 
who has written extensively in this regard, that we may never 
permanently settle this issue, but we must always be prepared to have 
the discussion. Before I came to work for the Commonwealth, my notion 
of what was going on in the intelligence world was not always a benign 
one.
    The balance at the CFC and in the State we are trying to achieve 
now has made us reexamine our efforts, our policies, and our 
transparency. In response to the most recent ACLU examination of fusion 
centers, we vowed to provide a reply with an honest assessment of where 
we were and where we hoped to be in the future. That letter is attached 
for your review. We are, in addition, promoting a privacy council to 
ensure that we have the benefit of outside council not on specific 
investigations, but on how the State's public safety agencies might 
better balance their important public safety mission with the rights of 
our citizens. I am confident that we are closer now, but I am also 
confident that the world is changing so quickly and access to 
information, databases, and technology is so rapidly evolving, that we 
can not simply rest on such assurances. Such advice need not just apply 
to the fusion centers, but perhaps to any entity that utilizes 
intelligence and information sharing as a prevention, protection, and 
mitigation tool. As information becomes more readily available, and the 
risks (as well as the benefits) are more easily multiplied, we must 
formalize structures and policies that embrace the debate, rather than 
deny or ignore it. We are not alone in our State, and to the extent 
that DHS can serve as a model or provide the very practices we all are 
seeking to achieve, we will ensure that we will take the proper steps 
to protect privacy and civil liberties, while continuing to utilize the 
mechanisms of intelligence and analysis that help protect our citizens 
from critical incidents.
    I hope I have provided you with useful information to assess and 
enhance DHS I&A. I have discussed the issues that are at the forefront 
of the CFC's concerns; which we know also hit home with many other 
fusion centers. Efforts on the part of DHS and the Federal Government 
to address the issues that were raised today offer a solid basis for 
making improvements and continuing useful efforts by I&A.

                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Harman. Mr. Cilluffo.

  STATEMENT OF FRANK J. CILLUFFO, DIRECTOR AND ASSOCIATE VICE 
     PRESIDENT, HOMELAND SECURITY POLICY INSTITUTE, GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Cilluffo. Chairwoman Harman, Ranking Member Reichert, 
distinguished members of the committee, thank you for the 
opportunity to testify before you today. I will be very brief, 
not my strong suit. As you know, I have never had an unspoken 
thought. I want to pick up on a couple of themes we have heard 
here and expand on two or three that I think are significant.
    Firstly, that the title of the hearing is spot on. That 
should be the priority of I&A at the Department of Homeland 
Security. I am not sure they have seen it that way thus far.
    While it has become a cliche, timely, accurate and well 
informed intelligence and information products shared both 
vertically and horizontally, at all levels of government are 
more important than ever to inform us about threats, solutions 
and responses.
    Collectively these capabilities build our understanding of 
the adversary. We tend to focus so much on the indication and 
warning. The reality is we need to know the context by which 
this fits in and it is sort of looking for the needle in the 
haystack. So I think there has been too much emphasis on the 
warning side and not enough on the broader strategic function. 
Not only at the State and local level, but at the Federal level 
as well.
    Collection is sexy. We all like to steal secrets and we all 
like to have secrets. The reality is what does it mean? How can 
you use it? Is it usable and how do we operationalize it--I 
think is the real issue we need to be working toward.
    While I agree with Matt and Juliette there has been some 
progress, and I think the national strategy is a good case in 
point of that, at least in theory if not fully in practice. At 
least people are now at a point where they understand. I think 
everyone is getting to the recognition of the need to share 
vis-a-vis the old need-to-know model.
    When I sit down with my State and local authorities, 
whether they are in the intelligence shops at NYPD or LAPD or 
any city throughout the United States, two common themes keep 
coming back to me. One, without a seat at the table in 
Washington, they cannot, as much as we talk about it, be true 
partners in the intelligence and information-sharing process. 
At the same time, the maximum of think globally, act locally 
should apply to all of our efforts here.
    Much of the information that is collected from State and 
local authorities don't find its way into any national pictures 
or frameworks or assessments. Many of the products that the 
national community is providing don't meet the very specific 
needs that their State and local authorities have. So I sort of 
see three approaches that DHS I&A can take to try to remedy 
this approach.
    Firstly champion, champion, champion. Serve as the champion 
for State and local in Washington and within the Beltway, 
setting standards, designing customer driven intelligence 
products and processes. In essence, readjusting the entire 
requirement setting process to meet their needs. This includes 
I&A inserting itself into the national intelligence priority 
framework, a very elite table, but I think they should have a 
voice in that.
    I personally believe that I&A has spent too much time 
proving that they deserve to be a member of the IC and not 
enough on some of the customers, which is their true, real 
differentiator at State and local. Secondly, it should enable 
its State and local partners. To me, the big gap is not the 
bricks and mortars, it is analytical capacity.
    We need to ensure that an analytical capacity, people. 
Ultimately this is all about people. We need to start investing 
in people and make those capabilities and capacities available 
to our State and local partners.
    We love Fusion Centers, they are positive, and they are 
good and there have been very positive developments there, some 
better than others. What we really are missing is what comes 
out of that. That is more of a data collection focus. I would 
like to see greater analysis. I would like see how that can be 
strung up together. This is where I&A play a very important 
role to take regional approaches. What are we seeing in one 
area, what are we seeing in another and how do we can put those 
pieces together.
    I listed a bunch in my prepared remarks of new products 
that I think would be helpful. Much of them focused on 
understanding the adversary, because quite honestly, there is 
still a dearth of that. I think that some of these deliverables 
can and should be done instantaneously. It is not in the United 
States, it is really what are we seeing overseas? What trends 
are important? What indicators are important? How can that be 
factored into suspicious activity reporting at the local level? 
What are we seeing in terms of modus operandi in combat 
situations? What are we seeing outside of combat situations? 
What are the trends? I am not sure that that has been done 
effectively.
    Secondly, I think CBP is a unique aspect of DHS and that 
should be better integrated into our information sharing 
efforts with State and local.
    I think that as Juliette mentioned, some of the videos 
quite honestly, I think we do need more of that. We need to 
understand the terrorist narrative, not just what the actions 
are, but what is making them tick. How can we get to a lexicon 
where we can communicate with our communities? Ultimately, the 
solutions are going to be community policing, hopefully 
intelligence-led, and that to me should be a major, major 
priority.
    One pagers: I would like one pagers of every terrorist 
incident we have seen overseas. Simple. I would like to see one 
page about not only incidents but what about thwarted incidents 
and how are they thwarted and why were they thwarted? This is 
something that I think could be very valuable. If DHS I&A 
doesn't provide it, Madam Chairman, and I realize this may be 
outside of the jurisdiction of this subcommittee, perhaps 
others, such as FBI and NCTC should be given the authority and 
responsibility to do so.
    On the enabling side my colleagues said it much better than 
I ever could, but let me recognize the importance of privacy. 
This shouldn't be an afterthought, it shouldn't be a 
perfunctory last paragraph in every document. It needs to be 
part and parcel. It is not just the civil liberties and civil 
rights communities inside government, but the broader civil 
rights communities should have a voice. Even if we all can come 
to some conclusion, it won't work if it doesn't have the trust 
of the community. Trust and confidence is at the bottom of all 
of this. That includes the communities that ultimately we all 
serve. So I would just highlight that, accentuate that and I 
will stop at that. Thank you.
    Ms. Harman. Thank you very much.
    [The statement of Mr. Cilluffo follows:]

                Prepared Statement of Frank J. Cilluffo
                             April 24, 2008

    Chairwoman Harman, Ranking Member Reichert, and distinguished 
Members of the Intelligence, Information Sharing and Terrorism Risk 
Assessment Subcommittee, thank you for the opportunity to testify 
before you today. The role of intelligence is the lifeblood in the 
campaign against terrorism and other threats. Your leadership in 
examining intelligence issues as they relate to the Department of 
Homeland Security better serving State, local, tribal and other 
stakeholders is to be commended. This should be the primary mission of 
the Office of Intelligence and Analysis.
    Officials at the State, local, and tribal levels and their 
counterparts in the private sector are often the first preventers and 
responders to terrorism and other security threats. Timely, accurate 
and well-informed intelligence and information products, shared 
vertically and horizontally with all responders at all levels of 
government, are more important than ever in order to inform them about 
threats, solutions and responses. Collectively, these capabilities 
build our understanding of the adversary. Already, we have made some 
headway toward this end in theory, if not entirely in practice. A 
National Strategy for Information Sharing exists.\1\ We are moving 
toward creating an effective Information Sharing Environment--one 
supported by a culture based on a ``need to share'' rather than merely 
a ``need to know.'' Notably, the National Strategy references the 
crucial role of State, local and tribal partners in an effective 
counterterrorism effort. However capable our intelligence apparatus' 
may be, this is ultimately an exercise in risk management; intelligence 
simply has limitations. Intelligence estimates, for example, are just 
that: analysts are not and cannot be expected to be clairvoyant.
---------------------------------------------------------------------------
    \1\ National Strategy for Information Sharing, The White House, 
October 2007, http://www.whitehouse.gov/nsc/infosharing/.
---------------------------------------------------------------------------
    In the course of my work as the Director of The George Washington 
University Homeland Security Policy Institute, I have worked with a 
range of State and local intelligence and law enforcement officials. 
Two common themes have emerged among my discussions with them: without 
a seat at the table in Washington, they cannot be true partners in the 
intelligence and information sharing process; and at the same time, the 
maxim of ``think globally, act locally'' should apply.
    Information collected by State and local partners does not always 
make it into national intelligence assessments, while the products they 
receive often do not meet their unique needs. The Department of 
Homeland Security's Office of Intelligence and Analysis has the 
potential to remedy this through three steps. First, the Office should 
champion State, local, and tribal stakeholders within the Beltway, 
setting standards and designing customer-driven intelligence products 
and processes, such as the National Intelligence Priority Framework. 
Second, it should enable its State and local partners by investing in 
analytical capabilities in existing information sharing venues like 
Fusion Centers and operationalizing that intelligence. Finally, it can 
work to integrate fully intelligence collection and analysis at all 
levels of government, producing the first truly all-source, all crimes 
and all-hazards domestic threat assessment. Respecting and preserving 
civil rights and civil liberties is crucial in all of this, and the 
Department's Office of Civil Rights and Civil Liberties should be at 
the forefront of these efforts, consulting and incorporating to the 
fullest extent possible the views of the broader civil rights and civil 
liberties community.
 championing state, local and tribal stakeholders at the national level
    Just as many law enforcement duties and policies are the purview of 
State and local governments, so too should many corresponding 
intelligence functions. While Federal agencies rightly should be 
concerned with transnational threats against our homeland, allies and 
interests abroad, relying solely on Washington, DC-based agencies for 
State and community-based intelligence needs ensures local requirements 
and concerns do not receive the priority they deserve. No one has a 
better grasp of communities and their particulars than local officials 
and partners. Thus, while products such as National Intelligence 
Estimates and programs such as personnel rotations to different 
intelligence details are important at the national level, the Office of 
Intelligence and Analysis should ensure State and local partners 
receive the priority they deserve by representing them at the national 
and homeland security planning tables, setting priorities and 
requirements and designing products that meet the unique needs of these 
partners.
    That said, intelligence and analysis on terrorist tradecraft 
including weapons, financing and modus operandi currently used in 
combat environments and other targets of terrorism far from our own 
municipalities can be useful for domestic purposes. Knowing what and 
who we face abroad can serve as a positive tool for creating policies, 
fine tuning tactics, and collaborating on threat indicators among other 
responses at the local level. As past events have indicated, our 
geographic isolation from regions frequently affected by terrorism is 
but a small impediment to those seeking harm against our homeland. The 
need to think globally and act locally necessitates creating a 
mechanism whereby State and local partners are kept in the loop 
regarding national intelligence assessments of international terrorism 
and transnational crime. The Office of Intelligence and Analysis should 
ensure partner agencies and officials receive current national 
intelligence assessments that can be integrated into State and local 
law enforcement practices.
    The Office of Intelligence and Analysis should also take the lead 
in designing new intelligence products such as the following:
  <bullet> Regional Threat Assessments, produced by Fusion Centers 
        incorporating intelligence gathered at the State and local 
        levels across a geographic region, would focus on trends in 
        suspicious activity, radicalization, threats to critical 
        infrastructure and other local concerns.\2\ Such assessments 
        would, for the first time in many cases, not only make State 
        and local authorities aware of threats and key vulnerabilities 
        in neighboring jurisdictions, but also in those across the 
        country. Besides raising awareness of terrorist and criminal 
        indicators throughout different jurisdictions, Regional Threat 
        Assessments would indicate similarities and differences in how 
        State and local authorities collect intelligence, as well as in 
        what they are collecting. Similarly, these assessments would 
        allow State and local officials to compare threats at a broader 
        level, thereby enabling them to more easily spot trends between 
        different jurisdictions. The Office of Intelligence and 
        Analysis would prove vital to ensuring that information 
        collected at the local level is fed into relevant analysis and 
        that the analytical capacity is in place to turn the 
        intelligence into products to be shared among disparate 
        jurisdictions.
---------------------------------------------------------------------------
    \2\ The regional approach has merits beyond the intelligence 
context. See, for example, Regionalizing Homeland Security: Unifying 
National Preparedness and Response, The George Washington University 
Homeland Security Policy Institute, June 30, 2006, http://
www.gwumc.edu/hspi/pubs/hspiregion.pdf.
---------------------------------------------------------------------------
  <bullet> Along with Regional Threat Assessments, other threat 
        assessments incorporating intelligence gathered overseas that 
        is directly relevant to State and local responders would be 
        produced. These products would include information on threats 
        to the homeland arising overseas, trends in radicalization and 
        counter-radicalization abroad and intelligence collected at 
        U.S. borders by Federal agencies. U.S. Customs and Border 
        Protection, for example, is a unique Department of Homeland 
        Security asset and information collector that should be better 
        incorporated into the intelligence capacities of local and 
        State partners with points of entry within their jurisdiction. 
        The Office of Intelligence and Analysis should act as that 
        enabler. Another example of a best practice that should be 
        further disseminated and replicated is the Integrated Border 
        Enforcement Teams (IBETs) which bring together Canadian and 
        U.S. border security agencies at 23 locations. Intelligence 
        gathered abroad is already available; what is needed is for the 
        Office of Intelligence and Analysis to ensure national 
        collection assets collect the information needed by all levels 
        of government, and that products provided to State and local 
        responders meet their unique needs.
  <bullet> A virtual library of key documents, statements, video 
        propaganda, and other materials produced by our adversaries 
        would be established and maintained by the Office of 
        Intelligence and Analysis for its State and local partners. 
        This would provide State and local responders with a better 
        understanding of our adversaries' intentions, capabilities, and 
        tactics, but also the narratives they use to spread their 
        appeal--information needed to identify and counter 
        radicalization and emerging threats in their own communities. 
        It could also help State and local responders develop a lexicon 
        for effectively discussing issues of terrorism and 
        radicalization with their communities. In particular, they need 
        more and better analysis, providing a multidisciplinary 
        understanding of our adversaries' motivations, thoughts, and 
        plans. While indications and warnings of possible attacks are 
        vital, better understanding of our adversaries will allow our 
        first responders to move toward preempting and disrupting 
        terrorist activities before they take shape.
  <bullet> Incident reports providing background on and summaries of 
        international and domestic terrorist actions (including actual 
        incidents and those that were thwarted) would be produced and 
        collected by the Office of Intelligence and Analysis and placed 
        into a virtual data base that would supplement the virtual 
        library. These incident reports would inform State and local 
        partners of terrorist activity and trends outside their 
        jurisdictions. Two examples of open source terrorism incident 
        data bases are the National Consortium for the Study of 
        Terrorism and Responses to Terrorism (START) at the University 
        of Maryland and the Memorial Institute for the Prevention of 
        Terrorism's Terrorism Knowledge Base.
  <bullet> Information gathering and reporting processes would be 
        standardized by the Office of Intelligence and Analysis through 
        requirements setting. The Los Angeles Police Department, for 
        example, recently introduced Suspicious Activity Reports (SARs) 
        for its officers to report in detail any kind of potential 
        terrorist-related activity, which fits seamlessly into their 
        daily operations. Department officers have been receiving 
        training in what kinds of suspicious activities to look for 
        based on a 65-item checklist which includes indications that 
        someone conducted surveillance on a government building, tried 
        to acquire explosives, openly espoused extremist views or 
        abandoned a suspicious package, for example. SARs represent a 
        best-practice that could be used at the State and local levels 
        across the country to feed information into customer-driven 
        products like the Regional Threat Assessments. These best-
        practices are already being implemented by State and local 
        responders; what is needed now is for the Office of 
        Intelligence and Analysis to act as a champion of the SARs in 
        order to implement the program with other partners in a manner 
        that promotes information sharing as broadly as possible. 
        Analysts from the Office of Intelligence and Analysis could 
        take a SAR, for example, and fuse it with other intelligence 
        including that from Fusion Centers, and create a product that 
        is broad but recognizes both a community's unique aspects as 
        well as incorporating regional and national trends.
    This is not meant to be a comprehensive list, but to illustrate 
some of the information products and resources that State and local 
responders need--and are not necessarily receiving--in order to secure 
their communities. By championing its State and local partners at the 
national level, the Office of Intelligence and Analysis can set new 
priorities and requirements at all levels of government in order to 
produce these vital and currently overlooked products. While this may 
be beyond the jurisdiction of this subcommittee, it is important to 
note that if the Office of Intelligence and Analysis does not take on 
this role, then others such as the Federal Bureau of Investigation or 
the National Counter Terrorism Center should be given the authority and 
responsibility to do so.
     enabling state, local and tribal first preventers & responders
    Ultimately, the solutions to terrorism and related threats will be 
local in nature--through localized analysis, community policing, and 
counter-radicalization that starts from the ground up. More than just 
setting requirements and providing products needed by State and local 
entities, the Office of Intelligence and Analysis must enable and 
empower State and local responders to be true partners in information 
analysis and sharing--that is, in fighting terrorism.
    This means, first and foremost, investing in analytical capacity. 
Throughout our country's intelligence community, there is an emphasis 
on collection over analysis. This is especially true with regard to the 
State and local levels, where many responders lack the resources or 
capacity to conduct analysis on their own. The New York Police 
Department and the Los Angeles Police Department offer two exceptions 
to the rule: both departments have developed effective intelligence 
collection and analytical capabilities, to their great credit. While 
there may be a few other exceptions, most municipalities and States do 
not have the resources to develop similar capabilities on their own, 
nor necessarily should they. This is not to say that stop-gap measures 
do not exist. For example, a wealth of open source information 
concerning our adversaries worldwide is available to State and local 
officials by the Department of Homeland Security through the Universal 
Adversary internet portal, a tool that is not yet well known. Training 
and educating State and local consumers of intelligence analysis on how 
best to make use of tools such as this is also important.
    State and local responders often do not have much luck when turning 
to avenues of information sharing with the Federal Government. Facing a 
virtual alphabet soup of State and Federal offices and agencies to 
contact, it is often difficult to even know where to turn. Even when it 
is clear, analytical capacity is usually given second billing after 
collection. Principal Deputy Under Secretary for Intelligence and 
Analysis Tomarchio, for example, noted in recent testimony that the 
Office of Intelligence and Analysis now has 23 officers deployed and 
serving in Fusion Centers around the country.\3\ While this is a 
positive step, it should be noted that this amounts to a little more 
than a third of an analyst per Fusion Center, excluding municipal 
police departments. To remedy this, the Office of Intelligence and 
Analysis should continue to deploy its own analysts to Fusion Centers 
and other points of cooperation, working to build out the analytical 
capabilities of these organizations. The burden of championing, 
enabling, and integrating the capabilities and goals of State and local 
partners should not fall to the Department of Homeland Security alone. 
Rather, sustained, long-term investment of both capital and personnel 
resources by the White House, various cabinet and sub-cabinet agencies, 
along with this and other Congressional bodies is necessary to increase 
the analytical capacities of and access for State and local partners. 
Unfunded mandates are not the answer, and it is important that Congress 
remain cognizant of the need for sustained investment in this area over 
the long run.
---------------------------------------------------------------------------
    \3\ Focus on Fusion Centers: A Progress Report. Testimony of 
Principal Deputy Under Secretary for Intelligence and Analysis Jack 
Tomarchio Before the Senate Committee on Homeland Security and 
Governmental Affairs Ad Hoc Subcommittee on State, Local and Private 
Sector Preparedness and Integration, 17 April 2008.
---------------------------------------------------------------------------
    The key goal of the Office of Intelligence and Analysis, however, 
should not be to continue the trend of top-down driven analysis. 
Instead, it should work to develop the analytical capacity from the 
bottom-up, by providing the required resources and training, 
disseminating lessons learned and best practices at home and abroad, 
and by identifying and filling gaps in capabilities for its State and 
local partners. For example, the Office of Intelligence and Analysis 
could enable State and local officials to gain hands-on experience 
through international partnerships and exchanges, most of which are 
outside the financial reach of State and local responders. Working with 
their counterparts overseas, State and local officials can gain greater 
understanding of how terrorists operate internationally, what 
counterterrorism approaches are being implemented abroad, what 
radicalization and counter-radicalization look like on the ground, and 
on-the-scene situational awareness.\4\
---------------------------------------------------------------------------
    \4\ LEAP: A Law Enforcement Assistance and Partnership Strategy: 
Improving Information Sharing Between the Intelligence Community and 
State, Local, and Tribal Law Enforcement. Prepared at the request of 
Congressman Bennie G. Thompson, House Committee on Homeland Security, 
pp. 10-12.
---------------------------------------------------------------------------
    While some information such as a better understanding of our 
adversaries will likely come from the national intelligence community, 
intimate knowledge of local communities will not be found in 
Washington, DC. State and local law enforcement, fire fighters, 
emergency medical services and others are truly on the front line 
against terrorism; they are not only the first to respond to an attack 
but, knowing their communities best, are the best-placed to identify 
and thwart radicalization and emerging plots before they become 
critical threats. Though terrorist threats are often transnational in 
nature, the solutions are primarily local. While the brick-and-mortar 
infrastructure of Fusion Centers and related entities are important, it 
is people who are critical--individuals trained and prepared to conduct 
intelligence analysis and intelligence-led community policing.
    These last two are essential. I have often said that in the 
struggle against terrorism, we cannot simply kill or capture our way to 
victory, but instead must utilize all instruments of statecraft to 
undermine the appeal of our adversaries' narrative.\5\ This is as true 
abroad as it is at home. Here, we cannot rely on the hard edge of 
policing by arresting our way to security. Instead, through community 
policing and engagement--earning the trust of communities, informing 
the public, identifying suspicious activities and signs of incipient 
radicalization, and discerning and diminishing grievances--we can 
undermine the appeal of our adversaries' narrative at home as well as 
abroad. The Office of Intelligence and Analysis can play a role not 
just by enabling and empowering State and local responders to develop 
their own analytical capabilities, but also by disseminating good work 
being done in the field of community engagement at the Federal level.
---------------------------------------------------------------------------
    \5\ See for example, NETworked Radicalization: A Counter-Strategy, 
The George Washington University Homeland Security Policy Institute and 
The University of Virginia Critical Incident Analysis Group, http://
www.gwumc.edu/hspi/reports/NETworked%20Radicalization_A 
%20Counter%20Strategy.pdf.
---------------------------------------------------------------------------
              BRINGING STATE, LOCAL, AND FEDERAL TOGETHER

    Like much of the Department of Homeland Security since its 
inception, the role and structure of the Office of Intelligence and 
Analysis has evolved over time. The Office's integration within the 
Federal intelligence community as well as with local and State partners 
is both necessary and challenging. It is important to remember that 
this integration is a process, the end of which we have not yet 
reached. As we look to ways to better integrate all levels of 
government, to enable and empower State and local responders, and 
create a customer-driven intelligence environment, the Office of 
Intelligence and Analysis will develop the capability to produce a 
truly powerful intelligence product: a comprehensive National 
Intelligence Estimate (NIE) addressing threats to the homeland, both 
foreign and domestic.
    Currently, the National Intelligence Council (NIC) provides, among 
other products, high-level estimates of global trends.\6\ Within the 
NIC, however, there is no National Intelligence Officer (NIO) or deputy 
NIO from the Department of Homeland Security. This means that a 
domestic threats security perspective, including systematic input from 
State and local officials, is not fully provided. The quick fix of a 
deputy NIO from the FBI did contribute to the July 2007 NIE on threats 
to the homeland. Looking to the future, however, the responsibility for 
domestic threat assessments ought to reside outside of the Intelligence 
Community.
---------------------------------------------------------------------------
    \6\ See for example the July 2007 National Intelligence Estimate: 
The Terrorist Threat to the U.S. Homeland, http://www.dni.gov/
press_releases/20070717_release.pdf.
---------------------------------------------------------------------------
    Within the larger discussion of the evolving role of the Office of 
Intelligence and Analysis, privacy protections must play a central 
role. Protecting civil rights and civil liberties must not be an 
afterthought to the discussion of how to effectively collect, share and 
disseminate intelligence. Rather, ensuring the privacy of Americans 
should be part-and-parcel with the intelligence and analytical 
objectives and goals of the Office of Intelligence and Analysis. As 
more agencies at all levels collect and share information on more 
facets of our lives at the community level, the opportunity for even 
the well-intended to cause privacy violations increases. This is 
problematic not only from the standpoint of an ordinary citizen 
concerned with their privacy, but also from an operational perspective. 
If communities view first responders, for example, as intelligence 
collectors with too broad a mandate, a lack of trust will develop, 
making it impossible for first responders to fulfill their primary 
roles and closing off an important avenue of information sharing with 
their communities. As Benjamin Franklin noted well before intelligence 
became a specialized discipline, ``Anyone who trades liberty for 
security deserves neither liberty nor security.''\7\
---------------------------------------------------------------------------
    \7\ An Historical Review of the Constitution and Government of 
Pennsylvania (1759).
---------------------------------------------------------------------------
    By establishing clear and transparent guidelines on the protection 
of civil rights and liberties, and by designing and providing 
appropriate training to State and local partners, community-based 
intelligence programs will not be marred and undermined by concerns of 
the potential for privacy violations.
    For any new intelligence or information sharing program, or 
collaborative effort through the Department of Homeland Security to be 
successful, it is critical for the Office of Intelligence and Analysis 
to build trust and confidence with public and private partners across 
all governmental levels to better serve its customers. That credibility 
will allow the Office of Intelligence and Analysis to serve three key 
functions for its State and local partners: serve their intelligence 
needs; enhance their creativity, resources and potential; and advocate 
within the Beltway for enhanced cooperation, funding and other critical 
resources to help State and local partners better serve their 
communities. Enhanced intelligence capabilities across local, State, 
regional and national levels will lead to better community security and 
ultimately our Nation's security.
    It is important not to get lost in the bureaucratic weeds. What 
we're talking about here today is simple: finding ways to making the 
good work being done by responders at all levels of government easier 
and better by connecting all of their efforts together. Since it takes 
a network to defeat a network, it is essential that we enhance our 
Nation's responders' interconnectivity and information-sharing 
capacity. This is one of the most powerful force multipliers for 
homeland security.
    With that in mind, there is a need to de-mystify intelligence and 
its role in policymaking. As we all know, a little black box with 
unearthed secrets that is accessible to only those with a sufficient 
security clearance simply does not exist. Intelligence should play a 
supporting function--a means to an end rather than an end in and of 
itself. But those intelligence means are critical to providing national 
and community-based officials alike with the necessary tools to enable 
closer cooperation, more informed decisionmaking and more nuanced 
policymaking. It is the people, not the programs, that are doing the 
work--and it is in people that the Office of Intelligence and Analysis 
should be investing.
    I wish to thank the committee and its staff for the opportunity to 
testify before you today, and I would now be pleased to try to answer 
any questions that you may have.

    Ms. Harman. Each of you anticipated most of my questions. I 
thought your testimony was excellent and now we will go to the 
questioning round and I am yielding myself 5 minutes.
    Mr. Bettenhausen, enlist, entrust and empower, I think, 
will become the new committee mantra. Any objections? When we 
print our coin, if we ever print such a thing, that is what it 
is going to say, so thank you for that.
    Mr. Bettenhausen. Hopefully I will get that first challenge 
coin.
    Mr. Perlmutter. Coordination, collaboration, cooperation.
    Ms. Harman. There we go. We will have a committee meeting 
on that later. We will put that on the back, then.
    More seriously, we have been fighting here, I don't think 
that is an incorrect word to get the ITACG, and you all are 
familiar with it. It was set up as a creation in order to 
accommodate State and local participation, because the NCTC did 
not want that participation directly as part of it, you can 
correct me, but at any rate, my view was set up to accommodate 
State and local participation. We have had this long fight 
about how many people to include, whether they need clearances, 
whether they gets desks and pencils, what role they play, 
whether the products they work on should show the fact that 
they are part of the NCTC, et cetera. It has been difficult and 
it required a legislative fix. Language was added to the 9/11 
Act last year to compel their inclusion. It took a long time, 
things are getting better. We are moving in a proper direction. 
I would argue that it could only go up. Nonetheless in talking 
with Mike Leiter, the new head of the NCTC, he has told us on 
the record and in meetings of the value added by this 
participation. Example, when there was a ricin incident in Las 
Vegas, he pointed out it was the State and local participants 
who said that the product describing that should describe what 
ricin looks like, and how much of it is harmful, and what you 
do about that. It seems obvious to me, but apparently the 
intelligence product that had been written at 30,000 feet 
didn't include that. So it didn't give direct guidance to State 
and local and tribal partners about what to do.
    I appreciated your comments, Juliette, about being treated 
like children. State and local partners are the people who are 
going to uncover the next terror attack. It is not going to be 
me, and it probably isn't going to be you--although it might 
be--but those are the folks, like Sheriff Reichert who need to 
have the actionable information. So we have to get this right.
    I just want to give each of you an opportunity for more 
comment on this. I appreciated, Frank, your addition of privacy 
concerns. It is certainly my view and certainly the committee 
shares it that those have to be built in on the front end. It 
is not something you add later. The way I put it, is that 
privacy and security are not a zero sum game. You either get 
more of both or less of both. Ben Franklin actually said that a 
long time ago, even before you skip. It wasn't an idea that you 
generated. So could you each respond to this notion of full 
inclusion, what it really means, at least in terms of the 
Federal agencies that we directly regulate and what about 
privacy.
    Mr. Bettenhausen. Thank you. I share your concern and I 
also share frustration. That should not have been an 18-month 
battle. It was appalling the amount of time wasted by 
leadership at the State, local and Federal level to get State 
and locals a seat at that table. It was common sense. That is 
time we are not going to get back. It should not have been that 
way. Most of the Federal agencies supported it. Some did not. 
But that battle is now over, thanks to your intervention on the 
grant funding. We have to get the Department to fix this.
    We are going into an election period, a transition period. 
These Fusion Centers are new, there is a shortage of analytical 
capability in Federal agencies and there is also at the State 
and local. At the same time, we have DHS telling us either come 
up with your own State funds or lay off those analysts, and 
push them out the door in the midst of this high-risk 
environment. The need to develop these capacities and 
capabilities is appalling and more time wasted.
    Since information bulletin 235, I am appalled when I think 
about how much time we have wasted arguing over an information 
bulletin when our time could be spent on improving actual 
products, preparedness an protection activities.
    Ms. Harman. Thank you. Ms. Kayyem.
    Ms. Kayyem. Thank you.
    Ms. Harman. Is your microphone on?
    Ms. Kayyem. Excuse me, let me go back. On this sort of why 
do States need this information as sort of key players, and 
that is what I think is often forgotten. Your ricin incident is 
perfect. What does it look like? It is because we have the 
capacity to get out to the people who are going to actually 
walk in the front door and say something. We can distribute 
that information and we have databases. It is bringing the 
Intelligence Community down a notch from wars and the stuff 
over there and the threats and IEDs.
    There is local and State emergency management, public 
safety people who are going to walk in the front door and what 
do you want them to know? On my publisher scenario it really 
puts the States in a dilemma. The lack of tactical or strategic 
advice given by DHS on the information coming out. I say I, it 
is not me, the Fusion Center, whoever is in the dilemma of 
either distributing intelligence that might trigger operational 
reactions that are not validated by the intelligence itself.
    If I send out a Hamas leader was killed, let's all be 
worried. I don't know how that will be interpreted by a local 
police chief. So I have either that dilemma or we hold onto it 
and then we are creating the very stovepipes that this whole 
venture meant to destroy. So it is a dilemma for us. If we 
could bring the Intelligence Community--I say down, but that 
may not be right. Why do we want to know this? It is not just 
because we just want to be in the know. There is actually 
operational needs that we have.
    On the civil liberties--I am embarrassed that I talk too 
fast, your timer went off when you spoke, I wonder if you have 
an in.
    Ms. Harman. Mine is off now.
    Ms. Kayyem. No, but on the privacy issue it is something I 
have been focused on in my previous capacity. We are embarking 
on a privacy council, and it is not just intelligence. The way 
the technology is changing means that people have to have 
assurances that we are looking at this, that this is at the 
front end, because if something goes wrong and it inevitably 
will, we don't want to be following the last crisis. We want to 
be in a position where we can regroup, say it was either a 
mistake or consistent with our guidelines, but have the 
policies and practices in place now so they can guide people 
who are not lawyers, who do not think about this every day as 
they shouldn't. We guide them in how they deal with these 
issues in the future.
    Ms. Harman. Thank you very much. Mr. Cilluffo. I apologize 
to my colleagues, I'll let you go over your time also if the 
answer does that.
    Mr. Cilluffo. I'll try to be brief. I don't think it is a 
very sexy issue. It is requirement setting. It is customer 
service. That requires, as Juliette was saying, bringing the 
intelligence down. But I think we have a lot to learn from the 
military environment where you are, the J2 and J3, the 
intelligence and operations in separation. Finally there was 
some recognition, and this is important to understand what 
intelligence is, it is a means to an end. It is not the end in 
and of itself.
    We tend to talk about it that it is, itself, the end. It 
supports something, whether it is policy or budget priorities 
or operations or diplomacy. It is a support function. I think 
it really comes down to requirements setting.
    I do feel that there are some elite tables that State and 
locals should have a voice at. I am not sure they should be 
directly representative of, say, the national intelligence 
priority framework, but someone needs to be their advocate, 
someone needs to be their champion, someone needs to speak for 
them, and someone who speaks for them has to understand them. 
What makes them tick everyday?
    We don't want to create little black boxes that are 
specifically for terrorism. It better work in a day-to-day 
function environment, not something totally unique and 
different.
    One other thing that I think is important here, there still 
is this belief and I think we have to demystify to some extent 
what intelligence is. There still is this belief, if I only had 
my TSCI clearances, I would have all the answers. I don't want 
to compromise a secret there, because it is not. It ain't 
there.
    The reality is we need to recognize the limitations of 
intelligence on collection and analysis. These are estimators, 
they are not clairvoyants we don't have all the answers. So to 
me it is requirement setting, it is getting the customer to 
drive that. That is not easy either. Once the customer has to 
actually start and think about its specific needs, they are 
going to find it is not an easy business, but it has to happen 
that way.
    Ms. Harman. Thank you, Mr. Reichert.
    Mr. Reichert. Thank you, Madam Chair. I want to go out to a 
little bit bigger picture. I think we are all in agreement that 
we don't want to see any major reorganization occur. We are all 
nodding our heads on that one.
    I will share a little story with you. Back when I was the 
sheriff, I made some trips here to Washington, DC and worked 
with Vice President Al Gore and his group on a project called 
Safe Cities. We were one of the ten in the Nation named a Safe 
City although we were a county. We were the only county in the 
country a member of this group and it had to do with gun 
safety.
    Well, as the administration changed then, not too long 
after that there was discussion about ending safe cities which 
was a very, very successful program. So what we had to do to 
fight to keep this program in place under a different 
administration, the name had to be changed. That is the only 
way that we were able to keep it. People might recognize this, 
it changed to Project Safe Neighborhoods. So that came from 
Safe City.
    So what my concern is, and what we are all worried about is 
reorganization. How do we, and maybe you already have begun 
discussions with DHS leadership and others that you know, how 
do we minimize any efforts or attempts to reorganization? Or 
what have you done or what should we be doing to prevent major 
reorganization? I think this will be--all of the things that 
you all have talked about so far this morning will be the death 
knell for all of us and the progress that we have made.
    Mr. Bettenhausen. Let me address a couple of those. We, as 
the National Governance Association of the Homeland Security 
Advisory Council, meet regularly with the Department. We as a 
full group met last April with the Department of Homeland 
Security last April, we will be back here in May. Over a year 
ago we had already started those discussions about transition.
    Again, it is really more of an afterthought that is still 
happening about what about your most important customers the 
State and locals? How can you serve us better? The central 
report that Charlie Allen had done is a good look at how these 
things need to be done. We are almost getting in too late in 
the transition process with this particular administration in 
terms of what they are doing and how they are going to move it 
forward.
    There is a national Homeland Security consortium, we have 
put together a white paper which will share with the committee 
that addresses some of the key transition issues. The 
congressional research service and our friend John Rollins came 
out with an excellent report on transition as well. This is 
going to require it, because Homeland Security is bipartisan. 
Actually, I would say it is a nonpartisan issue. So whoever the 
nominees are going to be, we want to start working early on 
with their potential leadership to talk about these potential 
transition issues, because we do not want to be caught in a 
transition exposure by being disorganized.
    September 11 itself was a transition attack. The 1993 World 
Trade Center attack was a transition attack with the second 
month of the Clinton presidency. The transfer of power from 
Blair to Brown in the United Kingdom saw an attack. We saw the 
attack in Spain. This is going to require early on and 
particularly after the election results are known, immediately 
working with them. Emphasizing again, let's not reorganize this 
thing to death, let's work on making sure what is working 
right, continues to work right, and how do we improve what is 
broken?
    Ms. Kayyem. I would just add simply a new leadership at the 
Department of Homeland Security to ask a question of each of 
these entities, but in particular I&A. What do you do that no 
one else does? We don't have to reorg for that question. What 
is your value? I mean, it is a simple Kennedy School question, 
but it actually helps. We think about that all the time because 
with crime, and everything else going on, and no money and 
schools, what are we doing that is something that no one else 
is doing?
    I think I&A is forced to answer that question, we are the 
answer. That is it. Then you figure out what their priorities 
are going to do, how they treat us maturely or your three 
things. Then also, how they get into resiliency, what I call 
resiliency intelligence. What are the things that are long term 
that we should be thinking about in terms of critical 
infrastructure, aging infrastructure and other issues like 
that? I think if the entity rather than being told to change, 
move or whatever else, that is simple. What is your mission 
statement and then I think we go from there, that no one else 
could have.
    Mr. Cilluffo. To build on some of Juliette's points, I 
think the value added was more Harvard Business School than The 
Kennedy School.
    First, I think it is very helpful to look at it. Form 
should always follow function. The reality is what are the 
mission areas? What needs to be met? What are the customers 
defining as the mission areas and what needs to be met. From 
there we can play with the boxes and the org charts, whether it 
needs to be reorg'd or not. I am not sure it does. What I would 
suggest is to look at what the mission is, and if it is not 
being met, give someone the wherewithal to meet that mission.
    I would also argue that it shouldn't be an inside-the-
beltway process. This has to be organic and some point there 
has to be with the top down bottom and the bottom up come 
together. We haven't even discussed the integrate side. At some 
point, that is where we need to get.
    On the actual transition planning, they actually have, I 
think, based on briefings I have received, done some 
interesting work. I have got a pretty radical view in terms of 
some of how this can be improved in the future. I feel that all 
deputy secretaries should be career civil servants.
    The one thing that the United Kingdom handled quite well, 
the Home Secretary just got her first JTAC briefing, the first 
intelligence briefing, literally 3 hours before the prevented 
incident. The reality is home office and the agencies that are 
running that, the ops guys are much more like the military. You 
can be promoted but you are a civil servant, so no gaps in 
terms of what it is doing. So those are my quick thoughts.
    Mr. Reichert. If I could make one quick comment. I want to 
encourage you to continue with your efforts. The only reason 
that this project that I talked about changed from Safe Cities 
to Project Safe Neighborhoods and continued on was pressure by 
the local sheriffs, police chiefs, mayors and city councils. 
Keep up the good work. Thank you.
    Ms. Harman. Thank you, Mr. Reichert. I have to say I 
totally agree with your thrust here. Mr. Carney.
    Mr. Carney. Thank you, Madam Chair. Thank you all for 
showing up today. This is pretty remarkable to have your 
experience and insight here. My question actually gets more to 
the heart of how the relationships work between the Federal 
Government and the State agency. Do you find it evolving, 
improving, devolving, not getting any better?
    Mr. Bettenhausen. You know sometimes you feel like you have 
made three steps forward and then you wonder whether you have 
made two steps or four steps back. It is evolving, but it is 
getting better. There is an emphasis here on DHS today, but 
this is beyond DHS. The Federal Bureau of Investigation also 
has a responsibility to be better sharing the information and 
looking after the customer focus, because as Director Molar has 
said, it is not just about prosecution. This is about 
preemption and prevention. That is what we must be doing and 
that requires a different mindset.
    Mr. Carney. Right.
    Mr. Bettenhausen. I spent most of my career as a Federal 
prosecutor and I understand this is a sea change in the way 
that they are doing business. There are cultural and 
bureaucratic roadblocks that are still there. This requires an 
attitude that we are going to have these partnerships, and it 
will be full and equal, and we want to share. Sometimes that is 
personality driven. You can have a special agent in charge 
where things are going swimmingly with all of your partners and 
that can change overnight with somebody else who comes in.
    If we establish the precedent, the requirements, the need 
for these partnerships and that is expected, that is the gold 
standard, and nothing less will be allowed or you will be 
removed from that office or be downgraded with your rating. If 
we don't have that attitude, you are going to have problems. We 
have it easier outside the beltway. Where the rubber meets the 
road, we can often get together and resolve some of these 
bureaucratic issues and work to have a clear sight of our 
mission of the realities of what must be doing and how we can 
do in a common sense way. That also requires changes from on 
top.
    Mr. Carney. I agree. Something of the pavement and the 
Beltway that prevents common sense from interfering with what 
we are doing here.
    Frankly you are right, I think if the folks working the 
problem would check the egos at the door we would get more 
done.
    Ms. Kayyem. When I took this job, I don't think I had any 
idea if I just thought about DHS. I agree with you, FBI is 
there. We have a very excellent SAC and the JTTF that works. So 
from the DHS entities alone and I think I listed them, we have 
ICE, Coast Guard, FEMA, a critical infrastructure analyst, 
chemical industry regulators, TSA and my I&A person and Coast 
Guard who report up a totally different structure. We are 
trying to manage it.
    Now rightfully, I think DHS is around more of the emergency 
management side, on the FEMA side more regionally focused. But 
Coast Guard is its own beast and it always will be I think. But 
from the management perspective of the State, it can get very 
difficult. So I sort of applaud efforts to have DHS figure out 
what their family looks like so when they react to a State it 
is helpful. I will tell you I have DHS people in the State that 
other DHS people don't know about. That is how it works. These 
chemical industry guys come in and it can he be amorphous and 
unmanageable. It is through personality and phone calls that 
you are able to do it.
    Mr. Cilluffo. Very, very briefly. I think it clearly has 
improved since 9/11. The problem is everyone is in the business 
now, everyone is a producer or a customer, that it gets 
confusing. There is a pandemic of plans. There is a lot of 
tactics and a lot of strategy, but a lot of doctrine that is 
missing, that is the big gap. I would also argue that it needs 
to come from the bottom up. That is where we have to invest in 
capacity for State and local, largely analytical.
    There has been some emphasis on the hard edge, meaning law 
enforcement. There are other customers who need to be part of 
at least the information loop and informed. EMS, hospitals, 
firefighters, where do they fit in this process in a way that 
is cognizant with constitutionality but also privacy issues.
    The real point that Juliette hit on, we wrote a very long 
report that I think about three people read, although Senators 
Collins and Lieberman, I think, did move it into legislation. 
We have to go regions on the intelligence side, we have 
regions. We need a regional footprint that can coordinate the 
full panoply in assets that the Department of Homeland Security 
has in support of State and local. I am not suggesting that 
they assume that role, but I really do feel if they were one 
big fix it is in the field. All the big fixes are always in the 
field and opportunities are in the field. I would regionalize 
DHS.
    Mr. Carney. Thank you. I will probably have questions 
later.
    Ms. Harman. We will have a second round of questions. This 
is fascinating.
    Mr. Perlmutter, you were here before I gavelled the 
hearing. I just explained that to Mr. Dent.
    Mr. Perlmutter. Sorry, Charlie.
    A couple questions. As I am listening to the testimony, it 
kind of reminds me of an old science class I had, with the 
beaker. It, kind of, comes down, and there is a narrow neck, 
and then it goes out like that.
    Just listening to the conversation, I am trying to figure 
out, assuming we have intelligence-gathering capacity up here, 
we have all these law enforcement and first preventers, first 
responders down here, who is in that narrow--I mean, there has 
to be some channel of communication. Who is in that narrow 
neck?
    Are you, Mr. Bettenhausen?
    Are you, Ms. Kayyem? Are you the narrow neck?
    I am trying to figure out how, in a sensible way, do we 
channel up the information from local law enforcement agencies 
and channel through down to the local law enforcement agencies 
the intelligence-gathering capacity of the Federal Government.
    Mr. Bettenhausen. It is an apt picture. Sometimes, though, 
I will turn that upside down, too, because, again, this is a 
bottom-up. They really need to be at the top of the chart, 
though, at the same time.
    But I think what you are looking at and where that focal 
point needs to be is the State and regional fusion centers. 
What you heard from all of us saying here, too, is all of the 
agencies need to be represented there. It is an investment that 
they need to make in it, because we can overcome a lot of the 
stovepiping of information, because, look, we are not going to 
come up with a be-all, end-all one system that is going to fit 
everybody's needs. It is probably better if we actually have 
people who are controlling that. Because then, again, that gets 
to the privacy, civil liberties. Everybody doesn't have access 
to that information, but somebody who is trained and 
responsible for that and from that agencies will have it.
    So, but if you have all of them sitting next to each other, 
sharing information from both top-down and bottom-up, those 
fusion centers are the ideal place to do that. Juliette--we 
have better information-sharing with components of DHS in the 
field and in these fusion centers than the directions that they 
are getting from headquarters. Sometimes we get the information 
before them. So that is where--it shouldn't be individuals.
    The beauty of most of these fusion centers, too, is it is 
not owned by a particular State, Federal or local. It is a 
shared entity. It is about that cooperation and collaboration. 
That is why it is the perfect vehicle to have people there.
    The other thing is, when you have them sitting and working 
together, there are things that get resolved and also solved 
just by, you know, the happenstance of, ``Oh, by the way, you 
know, we have this going on''; ``Huh, funny, I have seen the 
same thing in another part of the State.'' So having them there 
and integrating across Federal agencies, across State agencies 
and local agencies, that is how you ensure those globs of 
information get shared.
    But you also have to--it is not just about collecting all 
these dots. You have to have the analysts and the personnel, as 
all three of us have talked about, and the Chairs of your 
Homeland Security Committee, in riding DHS to allow us to 
prioritize the use of grant funds to have that analytical 
capability.
    Because the ricin example is a perfect example of how State 
and local perspective can help. The Virginia Tech shooting was 
another example, where the Virginia State Fusion Center 
immediately was able to get information out from the bottom-up 
that this is not a terrorism-related-in-a-broader-sense 
incident, this is not something requiring every university to 
start being worried about multiple attacks.
    That is the value. We can get this information all the way 
up to the President and the White House with truly accurate 
information and not having to get phone calls from five 
different Federal agencies about what is going on with 
something.
    Ms. Kayyem. Sir, when you ask about intelligence, there are 
two types, in my mind.
    One would be the actionable intelligence or investigation 
intelligence. What we have done, which I think works, is the 
members of the Commonwealth Fusion Center who serve on the 
JTTF--actually, in, you know, the org chart, but this matters--
are members of the Commonwealth Fusion Center and not of the 
State Police generally. So we view it as there are Fusion 
Center folks as part of the JTTF.
    So that information flow, whether it is specific 
investigations or whatever else, the principals get briefed 
quarterly on--we will get the phone call, basically, because of 
the relationship with the SAC if something imminent is 
happening.
    You know, there is a lot of hoax stuff out there right now. 
The SAC will call and say, you know, we are sort of looking 
into this, we think it is a hoax because the FBI in Detroit had 
something like this too, where some guy is just trying to get 
money from us, but we just wanted to let you know.
    On the intelligence theme, the transition stuff that we are 
all coming back to and whatever else, that is the kind of 
information that, you know, more analysts and the quality of 
the intelligence is going to matter a lot to make the fusion 
centers and DHS relevant in this world. Because the truth is, 
once it is actionable or once it is a specific investigation, 
it really is--and rightfully so for privacy reasons, for 
investigation reasons because it is going to go before a court 
at some stage--a JTTF or FBI matter. DHS recognizes that and 
needs to, sort of, understand why I keep going back to what is 
their value added.
    Mr. Cilluffo. I mean, they covered it beautifully. The only 
thing is I, kind of, do like the beaker analogy. It needs to 
change, though. DHS I&A should be, at this point, in the 
interim, that point where it is the--they need to be the 
champion, the enabler and, ultimately, the integrator in terms 
of adding value until we actually get the bottom-up that we are 
all looking for.
    But personalities matter; they really matter. This is a 
people business, and much more so. Trust and confidence can't 
be written into legislation. It can't be put on a document. 
That is something where you are in a foxhole, you have scar 
tissue, you have been through experiences, you have been 
through good, bad, ugly and everything else. This business, in 
particular, is run on trust and confidence more than any other.
    So how do we get to the point where people aren't 
exchanging business cards, as we all know, when the balloon 
goes up, but rather get to know one another as individuals, 
translate from individuals to institutions, and personalities 
into processes, realizing that that will change. But don't 
underestimate the people factor.
    Mr. Perlmutter. Thank you.
    Ms. Harman. Mr. Cilluffo, I can't help but observe that 
trust and confidence would help Congress, too. We would get a 
lot more done.
    Mr. Dent.
    Mr. Dent. Thank you, Madam Chairman.
    Thank you all for being here this morning.
    Mr. Cilluffo, on page 2 of your testimony you stated that 
DHS should send out, ``current National Intelligence Estimates 
that can be integrated into State and local law enforcement 
practices.'' You also ask that DHS make available for its 
partners a virtual library of key documents, statements, video 
propaganda and other material produced by our adversaries.
    I think one of the complaints we have been hearing from 
local law enforcement is that DHS is putting out a lot of 
products, as you know, that don't reflect current intelligence 
or law enforcement imperatives. I think Ms. Kayyem may have 
alluded to that a little bit. So there is a little bit of 
conflict between what I thought the two of you had said.
    In light of that, don't you think that supplying the data 
that you describe could create a, kind of, information overload 
for first responders? I would like to hear from both you two, 
because there seemed to be a little bit of conflict in your 
testimony on that particular point.
    Mr. Cilluffo. There may be some disagreement, but I am 
trying to focus what I think is the ``so what'', the ``what 
matters.'' I mean, when we look at metrics in this environment, 
I like Juliette's example, publish or perish, but there is also 
pay for the pound. I mean, we literally--it is not more 
product, it is better product, it is different product. We need 
the analytical capacity to be able to absorb that to meet 
operational needs.
    I still go around, and the reason, I guess, I am invited by 
all the major city entities to talk about national security 
issues, is very few people really understand the adversary. 
They understand their communities, but until you understand the 
adversary, you have two separate worlds, one that is over 
there, one that is over here, and what are we protecting 
against?
    Mr. Dent. I guess the question is, what would you suggest, 
then, to better tailor the resources of these needs to reflect 
the priorities of local law enforcement I guess is the issue?
    Mr. Cilluffo. Yeah, let them set the requirements. That is 
the idea, that State and local authorities and tribal leaders 
would actually set the intelligence requirements and the cycle, 
so it is meeting their specific needs.
    Mr. Bettenhausen. Let me just add one point with this that 
I think directly meshes what Frank is talking about and what we 
are talking about.
    We need the access to this information. It doesn't mean 
that I need to overload the cop on the beat in his morning call 
with all this information. But, you know, the things that we 
are recovering overseas, are they pictures of infrastructure in 
our State? What are their tactics? Those kind of things our 
analytical people need to be able to reach back and look into. 
We have seen the returns on targets. We have received the 
return of the planning and things. So our ability to have 
access in the knowledge base, it needs to be there.
    Then what we have to do is be smarter about it to make sure 
that we are not overloading both the individual at the street 
operational level and their policymakers and the policymakers 
above us with too much information.
    But I am the last one here to encourage and say that we are 
getting too much, because we will sort through that. We are not 
getting enough, or at least the right kind of things. But if we 
have the access to it completely, it also helps us.
    Ms. Kayyem. I am not sure if there is disagreement or not, 
but let me just get back to where--from the perspective of, 
sort of, the State consumer, which I have been focusing on in 
particular, is the quality of what we are getting--maybe it is 
Frank's point--the quantity is overwhelming. It has become 
sometimes white noise to us. Really, I would actually say, if 
less and better, I am happier.
    Because the truth is--and we may disagree on this. Because 
there is so much going on in the world, and I think the bin 
Laden tapes is a good example. I mean, I got the bin Laden 
tapes. Right? I can watch CNN and get the bin Laden tapes. 
Right? From our perspective, it is, how is DHS actually 
thinking about what is going on as we enter this summer? It is 
transparent to me, because I talk to Frank and hear from Tom 
and others and get the reports from Congressional Research 
Service and elsewhere. But why is that not coming from the very 
entity that ought to be thinking about this, in terms of the 
quality of the intelligence?
    I would hope--and I don't know on the example about whether 
something that is captured or some intelligence that we get, 
sort of, focused on, you know, a critical infrastructure 
facility in Massachusetts, that we would be notified of it. 
Maybe I am, you know--I actually think I have been in 
situations in which we are.
    I think when it gets to the point of, okay, this is 
Massachusetts-specific or someone is visiting our State and 
there is some concern about them, at least so far, and as far 
as I know, of course, whenever we talk about this, that is the 
part that is working, when it has ``Massachusetts'' written on 
it. It is the other stuff that is going on that I am less 
confident of, because, you know, we don't know.
    Mr. Cilluffo. Can I just build on two quick points? Because 
I think it is relevant.
    I mean, if you take the military example, what is provided 
to the very pointy end of the spear, the men and women who are 
really in harm's way, they are provided information in a 
certain format that literally means life or death in that 
particular situation. But there is other information that is 
provided to so many others along the way that need to be taken 
into consideration. I don't want the soldier necessarily 
worrying about that. He has enough to worry about, and he has a 
job to do. So that, I think, is maybe one way to think about 
it.
    Secondly, metrics, metrics, metrics. What gets measured 
gets done, but are we measuring what matters? Here I think it 
gets back to the same issue. To put it into a law enforcement 
context, as Mr. Reichert would know much better than me, do you 
want more informants or sources, or do you want an informant or 
source who actually knows something? We often get more, but I 
want the one who is inside the decision-making chain or the 
loop of an organization or an enterprise, so we can bring it 
down. So that is maybe the differential there.
    Mr. Dent. Can I ask just one quick yes-or-no question?
    Ms. Harman. Yes.
    Mr. Dent. Thank you. Thank you, Madam Chair.
    On page 5 of your testimony, you discussed LAPD and NYPD 
developing their own intelligence collection, and we have heard 
from NYPD over the years here.
    Do you think that local law enforcement officials should 
detail officers overseas to engage in intelligence collection 
in foreign environments?
    Mr. Cilluffo. I fully endorse the component of the LEAP 
report that this committee put out that, yes, we should have 
foreign liaison officers overseas, not for intelligence 
collection per se. Now, NYPD, LAPD, maybe they are tripping up 
sources vis-a-vis where they fit in with the other alphabet 
soup of agencies overseas. But clearly, from learning and being 
embedded with local law enforcement, you would benefit greatly.
    Ms. Kayyem. I am afraid I don't have a yes-no answer to 
that. We don't have it. I think there are real problems to it 
in terms of, sort of, everyone bumping into each other, and 
don't have intentions of doing it. But I don't know enough 
about New York and LA's programs to say whether generically we 
should do it.
    Mr. Bettenhausen. Yes. But it should not just be about 
intelligence collections. It is that relationship and 
partnerships and fellowships of learning what they are seeing 
and risks and threats. Because we are in a very small world, 
and what you are seeing overseas isn't far from our shores, as 
we saw on 9/11.
    Ms. Harman. Thank you.
    Thank you all. I thought the testimony was superb, and the 
answers to questions is superb.
    That is why, if members want to ask another round of 
questions, we will stay here to do that. I promise that my 
questions will not exceed, including your answers, 5 minutes.
    Let me first say I had an epiphany when--I think it was 
Matt who said that everyone is a producer and everyone is a 
customer. Did you say that?
    Mr. Bettenhausen. I think that it was Frank.
    Ms. Harman. Ah, it was Frank. Matt coined all our new 
terms. Juliette had the other piece of what is special here, 
which is where is the value added.
    I just want to observe--and when you respond to the one 
question I am going to ask you, please comment on this too--
that I think that I&A may be trying to play too many roles 
here. It had a core mission ripped out, which was the Federal 
Fusion Center function, which I mentioned in my opening 
remarks, and it has been trying since then to find many places 
that can fit in, when, in fact, if it would focus on value 
added, it might be a much more effective part of DHS. That is 
my thought, from what you all said.
    My question is about the private sector. No one really 
mentioned that. I think it was Frank who talked about EMS and 
hospitals. But I want to observe that in Minneapolis, the other 
day, we went to the Mall of America. We saw there a very 
impressive director of security, who has an office of 100 
people, who is running an operation in the largest, or one of 
the largest--in area, it is the largest mall in North America. 
I don't know that it has the most retail stores. Only my 
daughter, the shopper, would know that.
    But at any rate, his operation, which is tied into the 
Fusion Center and other law enforcement agencies in Minnesota, 
seems very effective. He showed us a tape that they made--they 
have many surveillance cameras there--of an individual who 
clearly, from this tape, was casing this mall. Turned out to be 
of foreign origin, and it is a longer story.
    But, at any rate, I was impressed. None of you has really 
addressed how you integrate or how one should integrate 
private-sector efforts with what you do. So that is my 
question.
    Mr. Bettenhausen. Unfortunately, I didn't have Frank's 
clock that stopped when summarizing my testimony. But one of 
the things that I did want to emphasize--because that is 
critical.
    Our critical infrastructure, most of it, is in the private 
sector's hands. In my written testimony, one of the things that 
we are advocating for and what the National Governors 
Association and State and Local Working Group on Infrastructure 
Protection has advocated is there needs to be a critical 
infrastructure/key resources desk in every Fusion Center, so 
that, one, you know what critical infrastructure do you have, 
what are the potential cascading effects, as well as meshing 
together threat information so that it matches the 
vulnerability and potential consequences that you could have to 
an attack on critical infrastructure.
    One of the things that Governor Schwarzenegger also did in 
California was our licensed security professionals and security 
guards in California are required to have 8 hours of training. 
The Governor, showing his vision and leadership on this, said, 
look, we ought to change that so that they get at least 4 hours 
of those 8 hours as terrorism awareness. One, so that they can 
recognize operational surveillance. Because we know that they 
have to do target selection, they have to do this, there is 
that operational cycle. If we can catch on early, we can 
preempt and prevent.
    That is putting--you know, in looking at scale and scope 
for California, there are 400,000 just-licensed security 
professionals out there. Linking them in not only with their 
eyes and ears so they know what to look for, more importantly 
how to report it back into the Fusion Center process so that we 
can understand and say, hey, we may have something going on 
based upon a series of incidents at chemical plants, shopping 
malls, whatever.
    Ms. Harman. Thank you.
    Other comments.
    Ms. Kayyem. Yes.
    Ms. Harman. In 1 minute, between you.
    Ms. Kayyem. The critical infrastructure/key resources desk 
is key. It is, I think, a really legacy function of the fusion 
centers, whether you have nuclear facilities or LNG terminals, 
which we have. That is going to be, I think, one of the core 
future functions of the Fusion Center-Homeland Security 
relationship.
    What we are trying to do, and what I think DHS has been 
actually very helpful on, is this ACAM system, which is an 
automated critical infrastructure system. It had a different 
name in California. But by having one tool that we are all, 
sort of, monitoring critical infrastructure off of, we are 
putting all the data in, we are working with our private-sector 
partners, we then have a basis to determine whether we should 
be nervous or not, from the State perspective.
    Because if I look at my critical infrastructure list, it is 
over 300. It is every high school. I love high schools; I care 
about high schools. But from the perspective of, is the 
Governor going to be terribly worried that there is going to be 
no energy in New England if something happened in the port, 
they are different. They are different kinds of worries. So 
that is a program that has helped very well.
    Ms. Harman. Thank you.
    My time has expired. So hopefully, Mr. Cilluffo, you have 
nothing to add?
    Mr. Cilluffo. Yes.
    Ms. Harman. Yes.
    Mr. Reichert.
    Mr. Reichert. Thank you, Madam Chair.
    One quick question. I know it was really a struggle for me, 
as a sheriff, to participate in all the Federal task force 
entities that exist. You are always being asked to be a part of 
this FBI task force or HIDTA task force or you name it. You 
want to provide a body to that effort. The same goes with the 
fusion centers and JTTF, et cetera. So the funding issue has 
really always been a sensitive one and one that we have all 
struggled with.
    What is your opinion on the Federal Government's 
responsibility and role as it relates to assisting local and 
State agencies in providing funding for fusion centers and task 
forces?
    Mr. Bettenhausen. Very much appreciate that question.
    There is a significant role that the Federal Government 
needs to be making. There is a misperception here in 
Washington, DC, that somehow $5 billion in Federal grant 
funding made available to State and locals on an annual basis 
somehow is supporting all of the State and local public safety 
efforts. It is almost too much to say it is a drop in the 
bucket.
    You know, you are not recognizing the fact that, you know, 
what changed after 9/11 is that terrorism prevention and 
protection is everybody's business. There is a lot of personnel 
and resources that we, as State and locals, are pouring into 
this particular effort. The Federal Government needs to support 
us with that.
    That is why it is important, with the grants for the 
analytical components of our fusion centers, for them to 
support it. Because there is also a misunderstanding. There is 
this belief that somehow these fusion centers are only for the 
benefit of State and locals. It, again, ignores that 
philosophical that you don't understand what we do as State and 
locals and what your sheriff's office can help provide them. 
These are there to support the national terrorism prevention 
mission. It is also all crimes, all hazards, to make our 
communities, our States, our Nation safer and better-prepared.
    That is why the Federal Government has an obligation to 
help support these, because it is to their benefit as well. It 
is not just for the benefit of State and local. It is ignoring 
all of the other things we are paying, whether it is 
corrections and prisons and the officers on patrol and all the 
TLOs, terrorism liaison officers, we trained and who fulfill 
this and support that national mission. That is why we need 
that Federal funding.
    The best example is, you know, does the Federal Government 
have urban search and rescue teams? Do they have hazardous 
material teams? No, they don't. They are in our communities at 
the State and local level. They become national assets in a 
time of emergency.
    That is why that grant funding we use to buy the equipment 
and do the training. But we pay for the personnel. If the 
Federal Government had to then create their own USAR teams to 
sit around like the Maytag repairman waiting for a national 
emergency, it would cost you a lot more than the $5 billion a 
year. Plus, you are losing the benefit of them saving lives and 
property day-in and day-out, 24/7/365.
    Ms. Kayyem. I actually have nothing to add to that, because 
that was great.
    Mr. Reichert. I almost felt like I should ask the question, 
run over there real quick and answer myself.
    But thank you for that. I wanted that on the record.
    Mr. Bettenhausen. Did I miss anything you would say as a 
sheriff?
    Mr. Reichert. You hit it right spot on. Thank you.
    Ms. Harman. See, we do this vertical integration right 
here. Here he is.
    Ms. Kayyem. I will add one other quick thing on the grants, 
because the IED thing is not helpful to us, from a State 
perspective, 25 percent. I mean, we have people so nervous 
right now for reasons that aren't supported by the 
intelligence, as I related in the oral testimony.
    I actually thought what is going on in the port grants--I 
know it is not in this jurisdiction, but just something to 
think about--what is going on in the port grants and obviously 
in SAFECOM were really helpful exercises for the State. 
Because, as you know, we have to distribute our money 80/20. 
But to be told by the Feds that the State has to come up with a 
plan, and it is your plan because I am a Commonwealth and I 
have crazy radio systems all over the place, and come up with a 
plan about how you are going to fix it, tell us how you are 
going to fix it, have an integrated plan, we will approve the 
plan and then release the money, and then you spend the money 
according to the plan, great, great process. I love it, because 
the complaining fire chief in a small jurisdiction who doesn't 
get what he wants, I say, not part of the plan.
    The port folks are doing the same thing with the trade 
resiliency. You have to come up with the plan first for your 
port money--we have $4 million this year--about how you will 
resume trade, how you will be resilient. Then all the 
jurisdictions mad at us, mad at the State, because they are not 
going to get everything they want, they can apply for grants 
according to the plan. It works great from a management 
perspective and a security perspective.
    Mr. Bettenhausen. I also caution, because I see a trend 
toward trying to require matches, whether it is soft or hard, 
and that is a mistake. There is not enough money there, based 
on what we are already contributing as State and locals, and to 
throw that match requirement on in these budget times, these 
economic circumstances--and, more importantly and 
fundamentally, it ignores that this is a Federal 
responsibility. If they want those assets to become national 
assets in times of disaster and catastrophe, you have to help 
us support it, support and build them.
    Mr. Reichert. Thank you.
    Ms. Harman. Mr. Perlmutter.
    Mr. Perlmutter. Thanks.
    Just, No. 1, I want to thank the panelists. It has been an 
excellent discussion, and just appreciate, you know, the 
knowledge and the fact that you have lived this subject. You 
can tell from your testimony.
    Switch gears a little bit and talk about open source 
opportunities or reports and just whether you think that is 
something that the Intelligence Community, DHS should be 
focusing on, whether we should be providing any legislation 
concerning open source reports. Then, you know, if you have a 
privacy aspect to it, I would like to hear that too.
    Mr. Cilluffo. Well, in my prepared remarks I did highlight 
the importance and significance of open source. I think a vast 
majority of this information is. Its collation that gets a 
little complex, but in terms of the information itself, is 
publicly available if you know where to look for it.
    The adversary relies entirely, if we are talking about al 
Qaeda or terrorism, on the Internet. So they need that to 
sustain their own operations. So they are tipping off many of 
their intentions, capabilities, plans and the like.
    If you look back during the Cold War, the amount of 
resources we have devoted--war colleges popped up, defense 
universities popped up--to understand the Soviet Union, we 
haven't even come close to understanding this adversary. We do 
so at our own peril. They are not madmen. They are not crazy. 
We have to actually understand. To me, open source can play a 
huge role in that.
    I think some of the better products are actually open 
source. One of the better DHS products is called The Universal 
Adversary, and I am not sure you guys have even seen it. It is 
not a very well-known product, because it is open source.
    That is something we also have to change. If it has that 
marking with a code word on it, we think it is better. That 
doesn't mean it is better. The reality is just because--it is 
how it was collected. I don't want to get into the whole 
process of what collection, what markings are and 
classification.
    But the vast majority of this stuff is available and should 
be. We need to devote the education, the resources and time to 
do it.
    Mr. Bettenhausen. Open source is very important because you 
can pull a lot of this together. Sometimes we get more timely 
information from reading the news reports than we do in getting 
the products. I mean, you know, the National Intelligence 
Estimate, we were reading about what was in there in the paper 
for a week before we ever even got a briefing from DHS on it. 
That is frustrating, and that has to change.
    But open source is critical. The CENTRA report--I don't 
think it requires legislation, in direct answer to your 
question. But the CENTRA report that Charlie Allen and DHS I&A 
commissioned talks about the importance of open source. In 
fact, they have started a couple pilot training programs. We 
were pleased to have one of them in California in our 
Sacramento Regional Threat Assessment Center. It was very 
useful. It was well-received.
    So it is the kind of customer service that the customers 
are saying, hey, we want more of this. So it needs to be at the 
top of their priority, and they should be funding--you know, 
now they are struggling, well, how do we continue this pilot 
and move this on? Well, you know, when it is meeting that need 
and it is being greeted warmly and with success, well, then we 
need to prioritize and do it. Because it is a critical part of 
the operations.
    It was followed up by the ODNI's conference, open source 
conference here in Washington, DC, that we attended and I spoke 
at. Because that is very important, to be able to access and 
use that information and get a better understanding of our 
adversaries.
    The importance, again, of that counter-narrative that Frank 
is talking about, in terms of making sure that we don't have 
radicalization occurring in our own communities, what are the 
issues to prevent that from having traction and preventing true 
assimilation and integration of our very diverse populations in 
the United States.
    Ms. Kayyem. Then, finally, just consistent with this, I 
think that the push I think a lot of States are making now to 
put the privacy and first amendment and retention-of-
information rules at the front end will not impede the open 
source, I am pretty confident of that, but will provide 
assurances to a public that doesn't often know what we are 
doing. I mean, you know, it is just fusion centers are--if you 
even know what it is, what is it doing and stuff.
    So, you know, maybe I am in the publish or perish mode, but 
I am, like, overwhelming people with, like, here is our privacy 
guidelines, here is--just because I want people to know that we 
have them, that we are not not thinking about this. If you can 
get that out there at the front end, then the other stuff sort 
of flows from it, and then they are consistent.
    You know, the ACLU remarks about fusion centers, you can't 
hide from them, they are out there. They represent, whether it 
is the ACLU or people's feeling about intelligence, which I 
often can have sometimes too, they represent a core feeling by 
many Americans. We can't pretend like the debate is going to go 
away. We have to, sort of, take it on front end and say, we are 
also rational people who recognize the importance of this.
    Mr. Perlmutter. Okay. Thank you very much.
    Ms. Harman. Thank you.
    Thank you to the colleagues on this subcommittee and to our 
witnesses. I thought the testimony and the Q&A were excellent.
    We feel good about the direction we are taking. Glad the 
message is being received out and about in the country. We want 
to continue to work with the three of you, specifically, on 
ways to satisfy the customer better and get I&A and DHS to 
fulfill its core mission better.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
